la
APPENDIX A
In the
United States Court of Appeals
for the Seventh Circuit
No. 20-1117
United States of America,
Plaintiff-Appellee,
v.
Martez L. Smith,
Defendant-Appellant.
Appeal from the United States District Court for the
Central District of Illinois.
No. 18-cr-20037—Michael M. Mihm, Judge.
Argued October 28, 2020—Decided March 3, 2021
(Filed Mar. 3, 2021)
Before Ripple, Wood, and Brennan, Circuit Judges.
Brennan, Circuit Judge. Illinois law enforcement
agents received a tip from a confidential source claim­
ing that Martez Smith had been dealing methamphetamine in Mattoon, Illinois. The agents conducted
controlled buys between Smith and the source, and in
the course of the investigation, requested a patrol

2a
officer stop Smith’s vehicle. During that stop, the
officer found marijuana, a marijuana grinder, and a
firearm in Smith’s vehicle. The officer arrested Smith
and seized the gun. A federal grand jury indicted
Smith on one count of distributing methamphetamine
and one count of possessing a firearm as a felon.
Represented by court-appointed counsel, Smith
pleaded guilty to both counts. He then sought to
retract his guilty plea, alleging ineffective assistance
of counsel. The court denied Smith’s motion to with­
draw his guilty plea, rejected his request for an eviden­
tiary hearing, and sentenced him on the two counts.
On appeal, Smith challenges the district court’s denial
of his ineffective assistance of counsel claim and his
career offender sentencing enhancement. We affirm
the district court’s decision in full.
I
A
In July 2018, Illinois law enforcement agents
received a tip from a confidential source, who claimed
he had been purchasing methamphetamine from Martez Smith in the Mattoon, Illinois area for the past
two months. Based on this information, the agents
arranged a series of controlled buys between Smith
and the source.
The first controlled buy occurred on July 9, 2018.
After the transaction, the source returned to the
agents and gave them approximately 46 grams of “ice”

3a
methamphetamine that he had just purchased from
Smith. With a failed attempt in the interim, the
agents conducted another controlled buy on July 27.
As instructed, the source text messaged Smith to pur­
chase three ounces of methamphetamine. Smith
replied “yea” and agreed on a time for the transaction.
That day, the agents observed Smith driving as if to
avoid surveillance while en route to the scheduled
transaction and requested a nearby patrol officer to
pull him over. The officer identified Smith’s vehicle,
noticed it had “extremely dark window tinting,” and
ordered Smith to stop. When he attempted to measure
the window tint, the officer realized that the batteries
of his tint meter had failed, so he radioed other officers
to bring him a new one.
During the approximately ten-minute wait, the
officer learned that Smith’s driver’s license had been
suspended. He asked Smith if he had any contraband
in the vehicle. Smith said no. The officer then
searched the vehicle and found a small amount of
marijuana, a marijuana grinder, and a 9mm pistol with
a 30-round extended magazine attached.1 In a later
interview, Smith admitted to possessing the firearm
but denied selling methamphetamine.
B
In August 2018, a federal grand jury indicted Smith
on two counts: (1) distribution of 50 grams or more of
1 Whether Smith consented to the vehicle search is disputed,
but the answer to that question does not affect our decision.

4a
methamphetamine in violation of 21 U.S.C. §§ 841(a)(1)
and (b)(1)(B) (“Count 1”); and (2) possession of a fire­
arm by a felon in violation of 18 U.S.C. § 922(g)
(“Count 2”). Smith pleaded not guilty to both counts.
The district court appointed Attorney Johanes
Maliza to represent Smith. With Maliza’s representa­
tion, Smith changed his plea to guilty in November
2018. During the change-of-plea hearing before the
magistrate judge, the parties agreed that, in addition
to the felon-in-possession charge, Smith would plead
guilty only to the lesser-included offense of distrib­
uting controlled substance between 5 and 50 grams
because the laboratory results revealed that Smith
sold less than 50 grams of methamphetamine.
The ensuing plea colloquy was thorough. Smith
testified under oath in response to the court’s ques­
tions. The magistrate judge asked Smith whether he
had sufficient time to review the case with his counsel,
whether he was satisfied with his counsel’s represen­
tation, and whether he discussed the specific charges
with his counsel. Smith answered “yes” to all three
questions and admitted under oath that he distributed
methamphetamine on July 9, 2018, and knowingly
possessed a firearm as a felon on July 27, 2018. The
court then asked Smith how he wanted to plead, to
which Smith answered “guilt/’ on both counts.
Following his guilty plea but before sentencing,
Smith filed two pro se motions seeking to withdraw
his pleas based on ineffective assistance of counsel.
Among various claims, Smith alleged that Maliza

;\

5a
failed to investigate and to file a motion to suppress
the firearm found in his car. Simultaneously, Maliza
moved to withdraw as counsel, citing “a direct and
irreconcilable conflict of interest” with Smith. The
court granted Maliza’s motion and appointed new
counsel. By counsel, Smith then moved to withdraw
his guilty plea and requested that the court hold an
evidentiary hearing on Maliza’s alleged ineffective
assistance. The district court denied both requests and
proceeded to sentencing.
The presentence investigation report recommended
a career offender enhancement under U.S.S.G. § 4B1.1
for Smith’s two prior convictions: a 2009 federal con­
viction for conspiring to possess with intent to dis­
tribute cocaine in violation of 21 U.S.C. § 846 and a
2013 Indiana conviction for attempted armed robbery.
Smith objected to this enhancement, arguing that his
conspiracy conviction does not constitute a predicate
“controlled substance offense” as required by the pro­
vision. Specifically, he asserted that the plain lan­
guage of the Sentencing Guidelines does not include
inchoate offenses like § 846 narcotics conspiracy.
Relying on United States v. Adams, 934 F.3d 720
(7th Cir. 2019), the district court rejected Smith’s argu­
ment and held that § 846 conspiracy constitutes a
predicate “controlled substance offense.” It concluded
that Smith qualified for the career-offender enhance­
ment under § 4B1.1. The district court sentenced
Smith to 214 months’ imprisonment on Count 1 and
120 months’ imprisonment on Count 2 to be served
concurrently. Smith timely appealed to this court.

6a
II
A
Smith first challenges the district court’s denial
of his motion to withdraw his guilty plea, which we
review for an abuse of discretion. United States v.
Barr, 960 F.3d 906, 917 (7th Cir. 2020).
A defendant may withdraw a guilty plea after the
district court accepts the plea, but before it imposes
a sentence, by showing “a fair and just reason for
requesting the withdrawal.” Fed. R. Crim. P. 11(d)(2)(B).
Ineffective assistance of counsel serves as a “fair and
just” reason for withdrawing a plea. See United States
v. Graf, 827 F.3d 581, 583-84 (7th Cir. 2016); see also
Hurlow u. United States, 726 F.3d 958, 967 (7th Cir.
2013) (noting that a plea that resulted from ineffective
assistance of counsel cannot be knowing and volun­
tary). To establish ineffective assistance of counsel, a
defendant must show that his counsel rendered defi­
cient performance and that the deficiency prejudiced
him. Strickland v. Washington, 466 U.S. 668, 688, 694
(1984). In other words, a defendant must show that
his counsel rendered objectively unreasonable perfor­
mance and that, but for counsel’s errors, the outcome
would have been different. Id. We need not address
both deficient performance and prejudice prongs “if the
defendant makes an insufficient showing on one.” Id.
at 697; see Armfield v. Nicklaus, 985 F.3d 536, 548
(7th Cir. 2021) (same).
In the guilty plea context, we apply the modified
Strickland analysis articulated in Hill v. Lockhart,

7a
474 U.S. 52 (1985). See Gish v. Hepp, 955 F.3d 597, 605
(7th Cir. 2020). Under Hill, the deficient performance
prong remains largely unchanged. A defendant must
show that his counsel rendered objectively unrea­
sonable performance and “performed seriously below
professional standards.” United States v. Williams,
698 F.3d 374, 386 (7th Cir. 2012). On the prejudice
prong, a defendant must show a “reasonable probabil­
ity that, but for counsel’s errors, he would not have
pleaded guilty and would have insisted on going to
trial.” Lee v. United States, 137 S. Ct. 1958,1965 (2017)
(quoting Hill, 474 U.S. at 59). The prejudice inquiry
into counsel’s failure to investigate “will depend on
the likelihood that discovery of the evidence would
have led counsel to change his recommendation as
to the plea.” Hill, 474 U.S. at 59 (adding that “[t]his
assessment, in turn, will depend in large part on a
prediction whether the evidence likely would have
changed the outcome of a trial”).
A guilty plea, however, “should not lightly be with­
drawn.” United States v. Brown, 973 F.3d 667, 715
(7th Cir. 2020). Courts must “not upset a plea solely
because of post hoc assertions from a defendant about
how he would have pleaded but for his attorney’s defi­
ciencies.” Lee, 137 S. Ct. at 1967. We instead “look to
contemporaneous evidence to substantiate a defend­
ant’s expressed preferences” and only allow a with­
drawal if we are convinced that the defendant would
have pleaded differently. Id.
Smith alleges three deficiencies in Maliza’s perfor­
mance: (1) failure to investigate and file a motion to

8a
suppress the firearm found in the car; (2) pressure to
hastily plead guilty; and (3) general unfamiliarity with
the facts of the case. The district court denied these
claims as either lacking merit or otherwise under­
mined by the record. We agree and analyze each of
Smith’s arguments in turn.
Motion to Suppress. When the alleged deficiency
is based on counsel’s failure to move to suppress evi­
dence, a defendant must “prove the motion was meri­
torious.” Long u. United States, 847 F.3d 916, 920
(7th Cir. 2017) (internal quotation marks omitted).
But here any alleged deficiency by Maliza matters only
if Smith could show that suppressing the firearm evi­
dence likely would have changed the outcome of the
trial. Hill, 474 U.S. at 59.
Smith claims that a motion to suppress would
have succeeded because the patrol officer did not have
consent or a warrant to search his vehicle. Warrant­
less searches are per se unreasonable under the Fourth
Amendment, unless an exception applies. United
States v. Kizart, 967 F.3d 693, 695 (7th Cir. 2020) (cit­
ing Arizona v. Gant, 556 U.S. 332,338 (2009)). The rec­
ord suggests that the automobile exception applies
here. Under the automobile exception, an officer may
search a vehicle without a warrant if there is probable
cause. Kizart, 967 F.3d at 695; see United States v.
Sands, 815 F.3d 1057,1061-62 (7th Cir. 2015) (“A war­
rantless arrest is constitutionally permissible if sup­
ported by probable cause,
”). Probable cause exists
“if, given the totality of the circumstances, there is a
fair probability that contraband or evidence of a crime

9a
will be found in a particular place.” United States v.
Eymann, 962 F.3d 273, 286 (7th Cir. 2020) (internal
quotation marks omitted).
The patrol officer here had probable cause to stop
Smith and search his vehicle. Law enforcement agents
had already conducted a controlled buy, and they had
scheduled another on the day of the arrest. The agents
even had text message evidence detailing the trans­
action planned for later that day. Smith was also driv­
ing suspiciously moments before the officer stopped
him and had illegally tinted windows on his car. And
although the officer may not have known all the facts
supporting probable cause, he was acting at the direc­
tion of the agents who did. See United States v. Khan,
937 F.3d 1042,1052 (7th Cir. 2019) (noting that the col­
lective knowledge doctrine “permits a stop at the direc­
tion of, or based on information relayed from, another
law enforcement agency”); see also United States v.
Nicksion, 628 F.3d 368, 376-77 (7th Cir. 2010) (finding
that the collective knowledge of law enforcement pro­
vided ample probable cause for officers to stop and
arrest the defendant and search his vehicle). The
totality of the circumstances leading up to the stop
demonstrates a fair probability that Smith’s vehicle
contained contraband. The officer therefore had prob­
able cause to stop Smith and to search his vehicle.
Without more, Smith cannot establish that he would
have succeeded on his motion to suppress the firearm
evidence.
Time Pressure. Smith also contends that Maliza
rendered ineffective assistance by pressuring him to

10a
take the guilty plea. He alleges Maliza did so in part
by telling him that the government would file a super­
seding indictment with an additional charge if Smith
did not plead guilty before the grand jury reconvened.
The district court dismissed Smith’s claims as conclusory or otherwise undermined by the record noting
that “that there was no pressure for the defendant to
plead immediately.”
We give special weight to a defendant’s sworn
testimony in a Rule 11 plea colloquy. See Graf, 827
F.3d at 584 (“A defendant’s motion to withdraw is
unlikely to have merit if it seeks to dispute his sworn
assurances to the court”). That testimony is presumed
true, and the defendant bears a heavy burden to over­
come this presumption. See United States v. Chavers,
515 F.3d 722, 724 (7th Cir. 2008). Smith expressly
acknowledged during his plea colloquy that he had
sufficient time to discuss the case with Maliza. As the
district court found, the magistrate judge “was careful
to give the defendant several opportunities where he
could have said that he was being pressured . . . [and]
sufficient opportunity to say that he wanted more
time.” At one point, Maliza even offered to adjourn the
hearing to allow time to file corrected information,
which cuts against Smith’s argument that his counsel
had rushed him to plead guilty.
Smith cannot show prejudice. He fails to demon­
strate a reasonable probability that, but for Maliza’s
pressure, he would not have pleaded guilty. The dis­
trict court was correct to reject this claim.

)

11a
Counsel’s Lack of Familiarity. Smith next asserts
Maliza rendered ineffective assistance because he
lacked familiarity with the facts of the case, emphasiz­
ing that the public defender was “confused and unfa­
miliar with the relevant facts.” To support this claim,
Smith points to a portion of the change-of-plea hearing
transcript where Maliza appears to fumble with his
words: “Again, Your Honor, I haven’t seen as much.
There was some stuff that I did—I don’t, I don’t think
I noticed, but the—certainly, the evidence that per­
tains to the elements . .. the essential elements of the
crime, yes.” Smith also complains that he “himself had
to speak up to correct his attorney’s misrepresenta­
tions.”
Smith’s challenge falls short of demonstrating
ineffective assistance of counsel. “An ineffective assis­
tance of counsel claim cannot stand on a blank record,
peppered with the defendant’s own unsupported alle­
gations of misconduct.” United States v. Hodges, 259
F.3d 655, 660 (7th Cir. 2001). The district court noted
that Smith took Maliza’s statements “out of context”
and read “far too much into them.” The hearing tran­
script shows that Maliza made the spotlighted state­
ment to confirm that the government presented
evidence that met the essential elements of the drug
and firearm charges while disagreeing with some of
the details. Viewing the statement in context, the dis­
trict court recognized that Maliza actually demon­
strated familiarity with the case. There is no support
in the record for the assertion that Maliza made a mis­
representation or that suggests his unfamiliarity with

12a
the case. The district court therefore properly exer­
cised its discretion to conclude that Smith’s arguments
lack record support and that he was not prejudiced.
B
Smith insists that the district court erred by
denying his request for an evidentiary hearing to
support his motion to withdraw his guilty plea. We
review the district court’s decision not to hold an
evidentiary hearing for abuse of discretion, see United
States v. Jones, 381 F.3d 615, 618 (7th Cir. 2004), and
its “factual findings, including whether the defend­
ant knowingly and voluntarily entered the plea, for
clear error.” United States v. Perillo, 897 F.3d 878, 883
(7th Cir. 2018).
A motion to withdraw a plea does not automati­
cally entitle a defendant to an evidentiary hearing
because “[wjhether to hold a hearing on the plea’s
validity is a matter left to the trial court’s sound dis­
cretion.” United States v. Collins, 796 F.3d 829, 834
(7th Cir. 2015). To illustrate, an evidentiary hearing is
not required “if the petitioner makes allegations that
are vague, conclusory, or palpably incredible, rather
than detailed and specific.” Gaylord v. United States,
829 F.3d 500,506-07 (7th Cir. 2016) (internal quotation
marks omitted). A district court need not hold an evi­
dentiary hearing if the defendant fails to offer substan­
tial evidence “or if the allegations advanced in support
of the motion are conclusory or unreliable.” Collins,
796 F.3d at 834.

13a
The district court did not abuse its discretion by
denying Smith’s request for an evidentiary hearing.
The only argument that it found as “possibly not a conclusory allegation” was the potential success of the
motion to suppress. But the district court explained
that the government provided “the uncontested prof­
fer” of independent probable cause to stop Smith and
search his car. Because Smith’s motion to suppress
would not have been successful, no evidentiary hearing
was necessary
III
Smith next challenges his career offender enhance­
ment. According to Smith, his prior conviction for con­
spiring to traffic cocaine, in violation of 21 U.S.C. § 846,
does not constitute a predicate “controlled substance
offense” under U.S.S.G. § 4B1.2. We review the dis­
trict court’s application of the Sentencing Guide­
lines de novo. United States v. Lewis, 842 F.3d 467,476
(7th Cir. 2016).
We look first to the text of the guidelines provi­
sions that Smith disputes. Under § 4B1.1, a defendant
is a career offender if: (1) he was at least 18 years old
when he committed the offense; (2) the instant offense
is a crime of violence or a controlled substance offense;
and (3) he “has at least two prior felony convictions
of either a crime of violence or a controlled substance
offense.” U.S.S.G. § 4Bl.l(a). Section 4B1.2, in rele­
vant part, defines “controlled substance offense” as “an
offense under federal or state law . . . that prohibits the

14a
manufacture, import, export, distribution, or dispens­
ing of a controlled substance (or a counterfeit sub­
stance) or the possession of a controlled substance (or
a counterfeit substance) with intent to manufacture,
import, export, distribute, or dispense.” U.S.S.G. § 4B1.2.
Application Note 1 to § 4B1.2 defines “controlled sub­
stance offense” to include aiding and abetting, con­
spiring, and attempting to commit such offenses.
U.S.S.G. § 4B1.2 cmt. n.l. Smith contends that Appli­
cation Note 1 is an improper expansion of § 4B1.2.
Courts treat the application notes to the Sen­
tencing Guidelines like an agency’s interpretation of
its own rules. See Stinson v. United States, 508 U.S. 36,
44-45 (1993). In Stinson, the Supreme Court held that
courts must give application notes “controlling weight.”
Id. at 45 (quoting Bowles u. Seminole Rock & Sand Co.,
325 U.S. 410,414 (1945)). A corresponding application
note is binding authority “unless it violates the Con­
stitution or a federal statute, or is inconsistent with,
or a plainly erroneous reading of, that guideline.”
Id. at 38; see United States v. Tate, 822 F.3d 370, 375
(7th Cir. 2016) (same). We apply the application notes
as “authoritative glosses on the Guidelines, unless the
notes conflict with the text.” United States v. Raupp,
677 F.3d 756, 759 (7th Cir. 2012), overruled on other
grounds by United States v. Rollins, 836 F.3d 737
(7th Cir. 2016).
A split of authority exists among many of the cir­
cuits as to whether courts are to defer to Application
Note 1 when applying § 4B1.2. In United States v. Win­
stead, the D.C. Circuit recognized a conflict between

15a
the text of § 4B1.2 and Application Note 1. 890 F.3d 1082
(D.C. Cir. 2018). It applied the interpretative canon
expressio unius est exclusio alterius to note that
§ 4B1.2 “presents a very detailed ‘definition’ of con­
trolled substance offense that clearly excludes incho­
ate offenses.” Id. at 1091. Given that the text of
§ 4B1.2 does not expressly include inchoate offenses,
the D.C. Circuit concluded that Application Note 1
improperly expands the provision’s scope and declined
to recognize an attempt crime as a controlled sub­
stance offense. Id. at 1091-92.
Similarly, the Sixth Circuit in United States v.
Havis did not extend the definition of controlled sub­
stance offense to include attempt crimes. 927 F.3d 382
(6th Cir. 2019) (en banc) (per curiam). It emphasized
that the application notes to the Sentencing Guide­
lines “serve! ] only to interpret the Guidelines’ text, not
to replace or modify it.” Id. at 386 (emphasis in origi­
nal). Because Application Note 1 adds to § 4B1.2’s tex­
tual definition, rather than interprets it, the Sixth
Circuit found the more expansive construction imper­
missible. Id. at 386-87. Finally, the Third Circuit con­
cluded the same in United States v. Nasir, 982 F.3d 144,
159-60 (3d Cir. 2020) (en banc). In addition to the
expressio unius argument, that court raised a separation-of-powers concern—namely, that deferring to the
application notes circumvents “the checks Congress
put on the Sentencing Commission.” Id. at 159. The
Third Circuit “conclude [d] that inchoate crimes are
not included in the definition of ‘controlled substance

16a
offenses’ given in section 4B1.2(b)Id. at 160. Smith
relies on these cases to support his position.
Our court’s precedent holds otherwise, and we see
no reason here to diverge from it. In United States u.
Adams, we held that the term “controlled substance
offense” encompasses inchoate offenses. 934 F.3d at
729-30. There, the defendant challenged the sentenc­
ing enhancement under U.S.S.G. § 2K2.1, which raises
the base offense level for a felon-in-possession convic­
tion when the defendant also has a prior conviction for
a controlled substance offense. Id. at 727. Section
2K2.1’s Application Note 1 references § 4B1.2’s Appli­
cation Note 1 for the definition of “controlled substance
offense.” U.S.S.G. § 2K2.1 cmt. n.l (noting that “‘[c]ontrolled substance offense’ has the meaning given that
term in § 4B1.2(b) and Application Note 1 of the Com­
mentary to § 4B1.2”). We concluded that § 4B1.2’s
Application Note 1 is authoritative and that “con­
trolled substance offense” includes inchoate offenses.
Adams, 934 F.3d at 729-30. In reaching this conclu­
sion, we relied on Raupp, which deferred to Application
Note 1 when applying § 4B1.2 and found no conflict
between them. 677 F.3d at 759. (“There cannot be a
conflict because the text of § 4B1.2(a) does not tell us,
one way or another, whether inchoate offenses are
included or excluded.”). Several other circuits agree.
See, e.g., United States v. Lange, 862 F.3d 1290, 129496 (11th Cir. 2017); United States v. Nieves-Borrero,
856 F.3d 5, 9 (1st Cir. 2017); United States v. Chavez,
660 F.3d 1215, 1228 (10th Cir. 2011); United States v.

17a
Mendoza-Figueroa, 65 F.3d 691,694 (8th Cir. 1995) (en
banc).
Smith attempts to distinguish Adams from this
case but to no avail. He emphasizes that Adams
dealt with a sentencing enhancement under § 2K2.1,
whereas here we address a sentencing enhancement
under § 4B1.1. But to distinguish Adams would
require us to find that there is a conflict between
§ 4B1.2 and Application Note 1 when interpreting
§ 4B1.1 but that no such conflict exists when inter­
preting § 2K2.1. We cannot reconcile Smith’s position
with our holding in Adams.
That brings us to our final issue: does § 4B1.2’s
Application Note 1 encompass § 846 conspiracy under
the categorical approach? The categorical approach
asks courts to look to the generic elements of a crime,
rather than the facts underlying how the crime was
committed, when determining whether a prior convic­
tion is a “controlled substance offense.” United States
v. Smith, 921 F.3d 708, 712 (7th Cir. 2019). A “generic”
version of an offense means “the offense as commonly
understood.” Mathis v. United States, 136 S. Ct. 2243,
2247 (2016). “If the elements of the crime of conviction
are the same as, or narrower than, the elements of the
generic version of the offense, the crime of conviction
qualifies as a predicate offense.” Smith, 921 F.3d at
712 (citing Mathis 136 S. Ct. at 2247-48).
Smith thinks that under the categorical approach,
his § 846 conspiracy conviction does not qualify as a
predicate “controlled substance offense.” He points to

18a
decisions from other circuits that have concluded
Application Note 1 does not include § 846 conspiracy.
See, e.g., United States v. McCollum, 885 F.3d 300,
308-09 (4th Cir. 2018); United States v. Martinez-Cruz,
836 F.3d 1305, 1314 (10th Cir. 2016). These decisions
found generic conspiracy to require an overt act in fur­
therance of the conspiracy. Because § 846 lacks an
overt-act requirement, Smith asserts, it “criminal­
izes a broader range of conduct than that covered by
generic conspiracy.” He adds that a § 846 offense does
not fall within the ambit of § 4B1.2’s definition of “con­
trolled substance offense.”
The Second Circuit recently took a different
approach in United States v. Tabb, 949 F.3d 81
(2d Cir. 2020). The defendant in Tabb argued that
Application Note 1 covers only “generic” conspiracy,
and by implication, excludes the broader § 846 nar­
cotics conspiracy. Id. at 88. The Second Circuit dis­
agreed. It first explained that generic conspiracy
encompasses § 846 conspiracy because “[t]he essence
of a conspiracy is an agreement by two or more persons
to commit an unlawful act.” Id. Although it recognized
that common law often required an overt act as an
element of a conspiracy offense, the Second Circuit
found the requirement unnecessary given that “Con­
gress has chosen to eliminate this requirement in the
case of several federal crimes, most notably narcotics
conspiracy.” Id. (citing United States v. Shabani,
513 U.S. 10, 14-15 (1994)). The court concluded that
reading Application Note 1 to cover § 846 narcotics con­
spiracy would best preserve the internal consistency

19a
of the Sentencing Guidelines. Id. (noting that the
defendant’s reading would “require finding that term
‘conspiracy5 includes Section 846 narcotics conspiracy
in some parts of the guidelines, but not others” (cita­
tions omitted)). Other circuits have drawn similar con­
clusions. See, e.g., United States v. Rivera-Constantino,
798 F.3d 900, 903-94 (9th Cir. 2015); United States v.
Rodriguez-Escareno, 700 F.3d 751,753-54 (5th Cir. 2012).
We agree that Application Note 1 encompasses
§ 846 conspiracy. First, the plain language of Applica­
tion Note 1 unambiguously includes conspiracy as
a “controlled substance offense.” U.S.S.G. § 4B1.2
cmt. n.l. We find no reason to construe the word “con­
spiring” in Application Note 1 to exclude § 846 conspir­
acy, especially given that an overt act is not always a
required element in the narcotics conspiracy context.
Second, the narrow reading that Smith proposes
would lead to conflicting textual and structural conse­
quences. Under his reading, a § 846 conspiracy would
constitute a controlled substance offense when inter­
preting § 2K2.1, as we do in Adams, but not when
interpreting § 4B1.1, as we do here. It would also
mean that the Sentencing Commission, when it
included the term “conspiring” in § 4B1.2’s Applica­
tion Note 1, intended to exclude federal conspiracy
from the federal Sentencing Guidelines. See Tabb,
949 F.3d at 88 (citing Rivera-Constantino, 798 F.3d
at 904). That cannot be, so we are not persuaded by
Smith’s interpretation. Considering that “identical
words and phrases within the same statute should nor­
mally be given the same meaning,” Powerex Corp. v.

20a
Reliant Energy Servs., Inc., 551 U.S. 224,232 (2007), we
conclude that reading § 4B1.2’s Application Note 1 to
include § 846 conspiracy would best preserve the inter­
nal consistency of the Sentencing Guidelines and avoid
any textual or structural pitfalls. Smith’s § 846 con­
spiracy conviction is thus a valid predicate offense
under § 4B1.1, and the district court correctly applied
the career offender enhancement to his sentence.
IV
For these reasons, we AFFIRM the district court’s
decision.

21a
APPENDIX B
United States District Court
Central District of Illinois
UNITED STATES ) JUDGMENT IN A
OF AMERICA ) CRIMINAL CASE
) (Filed Jan. 15, 2020)
v.
Martez Smith

)
)
)

Case Number: 18-cr-20037-001
USM Number: 08988-028

) J. Steven Beckett___________
) Defendant’s Attorney,
THE DEFENDANT:
0 pleaded guilty to counts)

1 and 2

□ pleaded nolo contendere to counts)__
which was accepted by the court.
□ was found guilty on counts) _____
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title &
Section
21 USC
§ 841(a)(1)

Nature of
Offense
Distribution of 50
grams or more of
Methamphetamine

21 USC
§ 841(b)(1)(B)
21 USC
Possession of a
§ 922(g)(1)
Firearm by a Felon

Offense
Ended Count
7/9/2018
1

7/27/2018

2

22a
The defendant is sentenced as provided in pages 2
through 6 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
□ The defendant has been found not guilty on count(s)
□ Count(s)____________________________________
□ is □ are dismissed on the motion of the United
States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assess­
ments imposed by this judgment are fully paid. If or­
dered to pay restitution, the defendant must notify the
court and United States attorney of material changes
in economic circumstances.
1/14/2020
Date of Imposition of Judgment
s/Michael M Mihm
Signature of Judge
Michael M Mihm U.S. District Judge
Name and Title of Judge
1/15/2020
Date

23a
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be impris­
oned for a total term of:
214 months on Count 1 and 120 months on Count
2, to be served concurrently
0

The court makes the following recommendations
to the Bureau of Prisons:

It is recommended that the defendant serve his sen­
tence at the lowest security facility as close to his fam­
ily in Mattoon, Illinois as possible, specifically FCI
Terre Haute. It is further recommended that he serve
his sentence in a facility that will allow him to partici­
pate in the Residential Drug Abuse Program and max­
imize his exposure to educational and vocational
opportunities.
0

The defendant is remanded to the custody of the
United States Marshal.

□

The defendant shall surrender to the United
States Marshal for this district:

□ at
□
□

□ a.m.

□ p.m. on_________

as notified by the United States Marshal

The defendant shall surrender for service of sen­
tence at the institution designated by the Bureau
of Prisons:
□

before 2 p.m. on_________ .

□

as notified by the United States Marshal.

24a
□

as notified by the Probation or Pretrial Ser­
vices Office.
RETURN

I have executed this judgment as follows:
a

to
Defendant delivered on
with a certified copy of this judgment.
UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

25a
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of:
8 years on Count 1 and 3 years on Count 2, to be
served concurrently
The defendant must report to the probation office
in the district to which the defendant is released
within 72 hours of release from the custody of the Bu­
reau of Prisons.
1.

You must not commit another federal, state or lo­
cal crime.

2.

You must not unlawfully possess a controlled sub­
stance.

3.

You must refrain from any unlawful use of a con­
trolled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.
□

The above drug testing condition is sus­
pended, based on the court’s determina­
tion that you pose a low risk of future
substance abuse, (check if applicable)

4.

□

You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other stat­
ute authorizing a sentence of restitution.
(check if applicable)

5.

0

You must cooperate in the collection of DNA
as directed by the probation officer, (check if
applicable)

26a
6.

□

You must comply with the requirements of the
Sex Offender Registration and Notification
Act (34 U.S.C. § 20901, et seq.) as directed by
the probation officer, the Bureau of Prisons, or
any state sex offender registration agency in
the location where you reside, work, are a stu­
dent, or were convicted of a qualifying offense.
(check if applicable)

7.

□

You must participate in an approved program
for domestic violence, (check if applicable)

If this judgment imposes a fine or restitution, it is
a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments sheet
of this judgment.
The defendant must comply with the following
conditions:
1. The defendant shall not knowingly leave the fed­
eral judicial district without the permission of the
court or probation officer.
2. You shall report to the probation office in the dis­
trict to which you are released within 72 hours of re­
lease from custody. You shall report to the probation
officer in a reasonable manner and frequency as di­
rected by the court or probation officer.
3. The defendant shall follow the instructions of the
probation officer as they relate to the defendant’s con­
ditions of supervision. Any answers the defendant
gives in response to the probation officer’s inquiries as
they relate to the defendant’s conditions of supervision
must be truthful. This condition does not prevent the.

27a
defendant from invoking his Fifth Amendment privi­
lege against self-incrimination.
4. The defendant shall notify the probation officer at
least ten days prior, or as soon as knowledge is gained,
to any change of residence or employment which would
include both the change from one position to another
as well as a change of workplace.
5. The defendant shall permit a probation officer to
visit the defendant at home or elsewhere between the
hours of 6:00 a.m. and 11:00 p.m., unless investigating
a violation or in case of an emergency. The defendant
shall permit confiscation of any contraband observed
in plain view by the probation officer.
6. The defendant shall notify the probation officer
within seventy-two hours of being arrested or ques­
tioned by a law enforcement officer.
7. The defendant shall not knowingly be present at
places where controlled substances are illegally sold,
used, distributed, or administered.
8. The defendant shall not knowingly meet, com­
municate, or otherwise interact with a person whom he
knows to be engaged, or planning to be engaged, in
criminal activity.
You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.

28a
ADDITIONAL SUPERVISED RELEASE TERMS
9. You shall not purchase, possess, use, distribute, or
administer any controlled substance or psychoactive
substances that impair physical or mental functioning
except as prescribed by a physician. You shall, at the
direction of the U.S. Probation Office, participate in a
program for substance abuse treatment including not
more than six tests per month to determine whether
you have used controlled substances. You shall abide
by the rules of the treatment provider. You shall pay
for these services, if financially able, as directed by the
U.S. Probation Office.
10. The defendant shall attempt to secure regular
and lawful employment, unless excused by the proba­
tion office for schooling, training, or other acceptable
reasons. The defendant shall keep the probation officer
advised of any changes in his employment status.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the con­
ditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature

Date

29a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal mon­
etary penalties under the schedule of payments on
Sheet 6.
JVTA
Assessment Assessment* Fine Restitution
$
$
TOTALS $ 200.00
$
□

The determination of restitution is deferred until
____. An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such determina­
tion.

□

The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the prior­
ity order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United
States is paid.

Total
Name of Payee Loss**

Restitution Priority or
Ordered
Percentage

TOTALS

$ $0.00

$ $0.00

□

Restitution amount ordered pursuant to plea
agreement $______

□

The defendant must pay interest on restitution
and a fine of more than $2,500, unless the restitu­
tion or fine is paid in full before the fifteenth day
after the date of the judgment, pursuant to 18

30a

□

U.S.C. § 3612(f). All of the payment options on
Sheet 6 may be subject to penalties for delin­
quency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
r
□
□

the interest requirement is waived for the
□ fine □ restitution.
the interest requirement for the □ fine
□ restitution is modified as follows:

** Justice for Victims of Trafficking Act of 2015, Pub.
L. No. 117-22.
**

Findings for the total amount of losses are required
under Chapters 109A, 110,110A, and 113A of Title 18
for offenses committed on or after September 13,1994,
but before April 23, 1996.

31a
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, pay­
ment of the total criminal monetary penalties is due as
follows:
A 0 Lump sum payment of $ 200.00 due immediately,
balance due
, or
□ not later than
□ in accordance □ C, □ D, □ E, or □ F below;
or
B □ Payment to begin immediately (may be com­
bined with IHC, □ D or, □ F below); or
(e.g., weekly, monthly,
C □ Payment in equal
over a period
quarterly) installments of $
(e.g., months or years), to comof
_ (e.g., 30 or 60 days) after the
mence
date of this judgment; or
(e.g., weekly, monthly,
D □ Payment in equal
over a period
quarterly) installments of $
(e.g., months or years), to commence
of
(e.g., 30 or 60 days) after release from imprison­
ment to a term of supervision; or
E □ Payment during the term of supervised release
(e.g., 30 or 60 days)
will commence within
after release from imprisonment. The court will
set the payment plan based on an assessment of
the defendant’s ability to pay at that time; or
F □ Special instructions regarding the payment of
criminal monetary penalties:
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of

32a
criminal monetary penalties is due during imprison­
ment. All criminal monetary penalties, except those
payments made through the Federal Bureau of Pris­
ons’ Inmate Financial Responsibility Program, are
made to the clerk of court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penal­
ties imposed.
□ Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and corre­
sponding payee, if appropriate.
□ The defendant shall pay the cost of prosecution.
□ The defendant shall pay the following court cost(s):
□ The defendant shall forfeit the defendant’s interest
in the following property to the United States:
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) commu­
nity restitution, (7) penalties, and (8) costs, including
cost of prosecution and court costs.

33a
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
UNITED STATES
OF AMERICA,
Plaintiff,
vs.
MARTEZ SMITH,

)
)
)
)
)
)
)

Docket No. 18-cr-20037
Peoria, Illinois
January 14, 2020

Defendant.
RECORD OF PROCEEDINGS
SENTENCING HEARING
BEFORE THE HONORABLE MICHAEL M. MIHM
UNITED STATES DISTRICT JUDGE
(Filed Jan. 6, 2021)
THE APPEARANCES
BRYAN DAVID FRERES, ESQ.
Assistant U.S. Attorney
201 South Vine
Urbana, IL 61802
On behalf of the Plaintiff
STEVE BECKETT ESQ.
Beckett Law Office, PC.
508 S. Broadway
Urbana, IL 61803
On behalf of the Defendant

34a
Nancy Mersot, CSR, RPR
United States District Court Reporter
100 N.E. Monroe Street
Peoria, IL 61602
Proceedings recorded by mechanical stenography, tran­
script produced by computer-aided transcription.
INDEX
DEFENSE WITNESSES:

Page

SHENELIA CURRIE
Direct Examination

19

KIARA WILLIAMS
Direct Examination

22

35a
[3] (In open court, 2:00 p.m.)
THE COURT: Good afternoon.
MR. FRERES:
MR. BECKETT:

Good afternoon.
Good afternoon.

THE COURT: This is the case of the United
States of America v. Martez Smith, criminal number
18-20037.
The defendant is in court represented by his attor­
ney Steven Beckett.
The United States is represented by Bryan Freres.
The matter is set today for sentencing.
The defendant previously entered a plea of guilty
to Count 1 of an indictment charging distribution of
50 grams or more of methamphetamine, and Count 2
charging possession of a firearm by a felon.
MR. BECKETT: Judge, may I correct that?
He actually pled guilty to less and [sic] 50 grams.
THE COURT: Oh, he did?
MR. BECKETT: Yes.
THE COURT: Thank you.
MR. BECKETT: Thank you, Your Honor.
THE COURT: The Court directed the pro­
bation office to prepare a written Presentence Report.

36a
[4] That was done. Copies were made available to eve­
ryone including the defendant.
Mr. Beckett, have you had a reasonable oppor­
tunity to read the report and review it with your client?
MR. BECKETT: I have, Your Honor.
THE COURT: As I understand it, you’ve
identified three objections: two of them in the standard
format, and an additional one in your sentencing com­
mentary.
MR. BECKETT: That’s correct, Your Honor.
THE COURT: Well, let’s take these one at a
time.
The first one is an objection to the inclusion of 425
grams of methamphetamine. As I understand it, the
objection is that, that information comes from the con­
fidential informant and is not credible and shouldn’t be
used to have such a dramatic effect on where we end
up here.
MR. BECKETT: Yes, Your Honor. And I have
spoken with Mr. Freres. I do have—I mentioned in my
sentencing commentary that I had some additional
information about the confidential source that I
wanted to present to the Court, but I do not want
to identify the confidential source. We discussed [5]
doing that sort of off the record.
THE COURT: Where are we on this? Does
either side wish to present evidence on this issue?

37a
MR. BECKETT: I only wish to present these
criminal cases involving the confidential source, and
I’ve spoke to Mr. Freres about that and make those
part of record under seal.
MR. FRERES: Your Honor, the government’s
position on this is that the Court actually addresses
the third objection first, the career offender provision;
and that these two other objections are not necessary
to resolve because they are subsumed in the career
offender provision itself.
The government’s position is not—I don’t neces­
sarily—obviously, I’m not going to present a witness
here today to identify the specific drug amount, but I
do think that it’s credible to argue that the defendant’s
a multi-ounce drug dealer based on the unobjected to
portions of the PSR, so that’s my intention for today.
■

THE COURT: It seems to me that all of the
objections are relevant. You’re saying that if I rule in
your favor on the career criminal, that the others
becomes moot. It does in one sense, but it [6] doesn’t
in another because the guideline or the place where
I actually set the guideline range is certainly an
important part of the record in the case.
Now, if defense counsel agrees that they address
the other matter first, and if I agree with the govern­
ment that this is moot, I will go along with that.
MR. BECKETT: I think that I have a respon­
sibility to argue each objection, even if you were to
agree with the government on the third objection. I

(

38a
would have a responsibility to make a record on the
other two.
THE COURT: Okay.
MR. FRERES: And just for simplicity sake,
Your Honor, the second objection I don’t have an issue
with. We can—as far as the two-level enhancement, I
don’t have a problem with it—the Court accepting the
defendant’s objection.
With regard to the drug weight, you know, again,
I’m not going to present the witness. I do think that we
have unobjected to portions of the PSR that can get us
to an amount. But the one that I honestly care about
the most is the third objection.
THE COURT:

I’m glad to know that.

[7] MR. BECKETT: So may we approach so
that I can show you this?
THE COURT: Yeah.
Have you seen this stuff?
MR. FRERES: Yes, I have, Your Honor.
THE COURT: Let me take a look at this.
(Pause.)
THE COURT:
informant?

So you’re saying this is the

MR. BECKETT: This is the informant. This
is—

39a
THE COURT:

So you’re saying that—

MR. BECKETT: These are subsequent to
the—so, in other words, these events all occurred in
July of 2018. She was first arrested—I should say, he
or she was first arrested in October, in Douglas County.
That case was dismissed. Then he or she was arrested
in January in Coles County. That case was presented.
You have the record showing that the person was con­
victed of unlawful delivery of meth and sentenced to
six years IDOC. Then brought to Douglas County and
had a second conviction in Douglas County, also for
unlawful delivery with a concurrent six years at IDOC.
We say those go both to the credibility of [8] the
information for the enhancement and also the credibil­
ity of the person for 3553(a).
THE COURT: Okay.
MR. BECKETT: So we would ask that you
take that under seal.
THE COURT: To become part of the sealed
record?
MR. BECKETT: Yes.
THE COURT: Do you have any objection to
that?
MR. FRERES: No, Your Honor.
THE COURT: All right.
MR. BECKETT: Thank you, Your Honor.

40a
THE COURT:
call witnesses on this?

So neither side is planning to

MR. FRERES: No, Your Honor.
With regard to, I think, a simplistic way to resolve
the drug amount. If you look at the paragraphs 9, 10,
and 11, paragraph 9 sets exactly what the defendant
was selling his methamphetamine for. He was selling
two ounces for $1,800.
In paragraph 10, you see that that’s exactly what
he did. He sold two ounces for $1,800.
In paragraph 11, it came out during the recorded
conversations that weren’t objected to, [9] that the
source owed him $3,600 for previously fronted meth,
which would be an additional four ounces. So the floor
here is at least six ounces of methamphetamine.
With regard to the actual amount, again, the gov­
ernment’s position is that the career offender provision
will subsume this in the guidelines. So the actual, the
Court can calculate the amount but it doesn’t make a
difference on the—it doesn’t make a difference on the
actual guideline numbers is the government’s position.
So I wouldn’t object to six ounces being the relevant
conduct amount and again that enhancement.
THE COURT: Let me ask defense counsel:
So you are suggesting that I make a finding of six
ounces?
MR. BECKETT: Well, the difficulty I am
having with that is the defendant was charged with

41a
more than six. We have no lab analysis. When the lab
was done in this case, the quantity wasn’t accurate at
all. So how can I agree that there’s six ounces for pur­
poses of the sentencing?
THE COURT: The amounts that are dis­
cussed in paragraphs 9 and 10, were they tested?
MR. BECKETT: No. The only one that was
[10] tested was the amount from the controlled buy.
THE COURT: So the controlled buy was the
one in paragraph 9.
MR. BECKETT: That’s correct.
THE COURT: Well, the 425 ounces.
MR. BECKETT: No the 46—I’m sorry—it’s
10, paragraph 10, the 46.9.
So if, in fact, you were to accept the government’s
position, which I understand the reasonableness of
what the government’s arguing, because of the 3,600—
THE COURT: So the government only actu­
ally has possession of the 46.9 grams?
MR. BECKETT: That’s correct.
THE COURT: Is that correct? And that was
tested?
MR. BECKETT: That’s correct.
THE COURT: All right. Well, this is always
a mess in these cases from my point of view because on

42a
one hand it may be because of what is set out here that
what the confidential source is saying is absolutely
accurate. On the other hand, there’s no way to test it
by cross-examination, for example, and it may be way
off. I think the only thing that I can do here at this
point is to hold him [11] responsible for the 46.9 grams.
I have had cases where the government has
called the confidential informant and have them tes­
tify under oath, but, anyway—46.9Sgrams.
MR. MILLER: Your Honor, may I? One thing
that I’ve done and I’ve had our various judges do . in
previous cases, again, paragraph 11 is unobjected to, so
the idea that $3,600 was owed for previously fronted
drugs—
THE COURT: Hold on a minute. You may be
right about that. Hold on.
MR. FRERES: And if—
THE COURT: Hold on.
MR. FRERES: I’m sorry, Your Honor.
THE COURT: So, you’re saying in para­
graph 11 there was—during the recorded conversa­
tions between the informant and the defendant, it
came out that the defendant owed him $3,600?
MR. FRERES: The source owed the defendant $3,600 for previously fronted drugs.
THE COURT: Okay. So how much would
that be?

43a
MR. FRERES: My position, Your Honor—
THE COURT: Three ounces?
MR. FRERES: We know from paragraph 10
if [12] this was arranged as a two-ounce transaction
and what he got, what the source got was 49.9 grams
of “ice.” So $3,600 would be four ounces. So it would
basically be 46.9 times 3 to get to the “ice” amount,
which would be 140.7 grams of“ice.” That’s the govern­
ment’s position for what this portion—
THE COURT: Okay.
MR. BECKETT:

I accept that logic, Judge.

THE COURT: Okay. That’s fine. So we are
talking 140 grams?
MR. FRERES: Yes, Your Honor. 140.7.
THE COURT: Okay. 140.7. Great.
The second one has to do with the enhancement
for a handgun.
Does either side wish to present evidence on this
one?
MR. BECKETT: No, Your Honor.
MR. FRERES: No, Your Honor.
THE COURT: All right. I would like to hear
the government’s argument then on this.

44a
MR. MILLER: Your Honor, well, my position
is that I don’t—again, if you take the gun guidelines,
his gun guidelines would be level 30.
He possessed the firearm, but he possessed it—
again, I’m not necessarily objecting, I [13] conceded, I
think, this objection.
So the two levels though, I mean, there is credi­
ble argument that it could apply given that they had
arranged a three-ounce drug transaction over a contin­
uing course of conduct.
THE COURT: If I understand your argu­
ment, you’re saying the gun was in the car, and the gun
was in the car at a time when he was stopped while
he was supposedly perhaps conducting a counter­
surveillance or something like that; that there had
been an arrangement for him to sell an amount of
methamphetamine, but there was no methamphetamine in the car at that time.
MR. FRERES: Correct. So the—as far as
the—what we see from paragraphs 9,10 and 11 is that
this source and the defendant had an established rela­
tionship, a drug relationship. A history that involved
multiple ounces of methamphetamine. So on this
instance, they arranged for a three-ounce transaction
the defendant didn’t have. But yet he was still driving
around expecting to meet the source. So the source is
going there expecting to buy drugs. The defendant had
arranged a drug transaction and is carrying the fire­
arm. So my argument would be that this is an estab­
lished [14] course of conduct involving a firearm. The

45a
danger is all say the same. The source is going there
expecting a drug transaction, and the person they are
meeting doesn’t have the drugs but they have a gun,
which presents all of the problems that the guidelines
are associated with, are concerned with.
THE COURT: Okay. Thank you.
What’s the response?
MR. BECKETT: Well, my response is that
the source of information about whether there’s going
to be a drug transaction is the confidential source. The
confidential source has told these people he is meeting
with me and he is going to have, going to have drugs.
And so they stop him and he doesn’t have drugs. And
then they interview him and ask for consent to search
his apartment and he gives consent to search his
apartment and he doesn’t have drugs, but he does have
a gun in the car.
THE COURT: All right. I’m going to adopt
the defendant’s position on this one. I don’t think the
government has established this by a preponderance
of the evidence. At the time he was stopped, there was
no meth in the car.
The third objection is one that would affect the
career, career offender guideline. And as I [15] under­
stand that, the objection is that one of the crimes was
the crime of conspiracy. And it’s your position that con­
spiracy should not be counted for that?
MR. BECKETT: That’s correct. I tried to
put it—set it out pretty succinctly in the objections

46a
regarding the contrary authority in another circuit.
But I’ve also pointed out to you the authority that the
Seventh Circuit—I have the responsibility to tell you.
THE COURT: I appreciate that. We know
the guideline; it doesn’t address it. It is addressed in
the application note. And you’re saying that that’s not
as good as the guideline.
But there are two cases that seem to address
this. One, they are both Seventh Circuit cases. One
of them is the—U.S. v. Anderson, 766 Fed appendix
377. In that one the Court says “adopting this reason­
ing, other courts routinely have affirmed sentencing
enhancements under ACA based on convictions for
attempt and conspiracy to manufacture, distribute or
possess with intent to distribute.
And then we’ve got one from our own court, which
is the U.S. v. Adams. It was just [sic] Shadid’s [16] case
where they talk quite a bit about this and talk about
how some of the other circuits have gone the other way.
But as I understand it, they clearly, they clearly say
the conspiracy would be included. Am I incorrect about
that?
MR. BECKETT: No, I think that’s what I
said. I think that it might—
THE COURT: Would you recognize a duty
on my part to follow Seventh Circuit law?
MR. BECKETT: Absolutely, Judge, but I
have a duty on my client to make—

47a
THE COURT: I understand. I assume what
I’ve just said you would agree with.
MR. MILLER: I agree with, Your Honor; yes.
THE COURT: So, I’m going to deny that
objection.
So, let’s see. What’s the net effect of all of that?
Hold on. Just a minute.
So the two level for possession of the firearm,
that’s out. That’s paragraph 26. That becomes a zero.
And the—paragraph 25, the amount drops down
from 471.9 to what, 140?
MR. FRERES:

140.7.

THE COURT: Kendrick, how would it change
[17] that?
PROBATION OFFICER:
the base offense level to a 30.

It would change

THE COURT: 30. Okay. But then because of
the career offender at 37, that would stay at 37, so we
would still end up with a total offense level of 34, cor­
rect?
Okay. Do you have any objections to the report?
MR. BECKETT: I do not, Your Honor.
THE COURT: Thank you.
Mr. Smith, have you had a reasonable opportunity
to read this report and review it with your attorney?

48a
THE DEFENDANT: Yes, Your Honor.
THE COURT: Based on your reading and
review, other than the matter that we’ve already
addressed and I’ve ruled on, is there anything else
in the report that you feel is inaccurate or incomplete
that you wish to challenge?
THE DEFENDANT: No, Your Honor.
THE COURT: You understand you have the
opportunity to present evidence in mitigation here this
afternoon; you also have the right to make a statement
to the Court on your own behalf before [18] you—before
I impose sentence? Do you understand?
THE DEFENDANT: Yes, Your Honor.
MR. BECKETT: Your Honor, I do indicate—
THE COURT: I’m sorry.
MR. BECKETT: I did indicate to Mr. Freres
and your chambers that the defendant’s mother and
the mother of his child wish to speak briefly to you and
testify.
THE COURT: Okay. That’s fine. Do you have
any evidence to present?
MR. FRERES: No, Your Honor.
THE COURT: All right. Go ahead.
MR. BECKETT: Thank you.
I will call Shenelia Currie.

49a
THE COURT: Will you come up front,
please? All the way up. All the way up here, please.
Thank you.
And raise your right hand to be sworn.
(Witness sworn.)
THE COURT: Have a seat right here,
please. Watch your step.
■ All right. Keep your voice up so we can all hear
you.
SHENELIA CURRIE,
after having been duly sworn, testified as follows:
[19] DIRECT EXAMINATION
BY MR. BECKETT:
Q.

State your name for the record.

A. Shenelia Currie.
MR. BECKETT: And you have the spelling,
correct? (To court reporter.)
BY MR. BECKETT:
Q. And you’re Martez Smith’s mother; is that cor­
rect?
A. Yes.
Q. Where do you live?

50a
A.

1817 South 9th Street, Mattoon, Illinois.

Q. The Presentence Report tells us that Martez
had two brothers, correct?
A. Yes, sir.
Q. All right. And it also tells us that they have
passed away; is that right?
A. Yes.
Q. You wanted to explain to the judge, when did
the oldest brother, Bartholomeus, when did he pass
away?
A. December 25th. And my youngest, he passed
May the 17th.
Q. Okay. So that was December of 2018 and May
of 2019; is that correct?
A. Yes. Yeah.
[20] Q. When I spoke to you last week, you told
me that you were actually in court in Coles County; is
that right?
A. Yes. We been having a jury trial since Monday.
We just—it just got over with Friday.
Q. Okay. And this is the person who killed your
younger son, Mark; is that right?
A. Yes, sir.
Q. And he was convicted of murder; is that right?

51a
A. First degree murder on two counts.
Q. All right. Now, during the period of time that
your two sons have died, Martez has been in custody;
is that correct?
A. Yes.
Q. Your son, Martez?
A. Yes.
Q. Now, have you had contact with him during
that period of time?
A. Yes, sir.
Q. Tell the Court how you’ve had contact with
him.
A. He call me and I go visit him once a week.
And—
Q. How would you describe your relationship
with your son?
A. We have a good relationship. We—
[21] Q. Has he been able to provide comfort and
support to you during this period of time?
A. Yes.
Q. Okay. Now I asked you if you wanted to write
a letter and you felt uncomfortable writing a letter. So
I told you that you would be able to say to the judge
whatever it is you wanted to say regarding the decision
he has to make, so why don’t you do that.

52a
A. I would—I would—Martez is the only support
I have right now. He’s my only son I have got left. I
would just like you to have a little leniency with him
and let him be able to come back home to me and his
kids.
MR. BECKETT: Okay. Thank you, Your
Honor. I have no other questions.
MR. FRERES: No.
THE COURT: All right. Thank you very
much, ma’am. You may step down. Be careful stepping
down.
Thank you.
MR. BECKETT: I’m going to ask Miss Cur­
rie to take the baby outside the courtroom because—
THE COURT: Sure, that would be great.
MR. BECKETT: Thank you.
THE COURT: Would you raise your hand,
[22] please, to be sworn.
(Witness sworn.)
THE COURT: Have a seat here, please.
KIARA WILLIAMS,
after having been duly sworn, testified as follows:

v

53a
DIRECT EXAMINATION
BY MR. BECKETT:
Q. Please state your name.
A. Kiara Williams.
Q. And what’s your address?
A.

2514 Buckster Drive, Mattoon, Illinois.

Q. Okay. Now, the baby that you had here in
court is your and Martez Smith’s baby; is that correct?
A. Yes.
Q. What’s his name? What’s the baby’s name?
A. Martez, Jr.
Q. How old is he?
A. He’s one year’s old.
Q. So during the period of time after the baby
was bom up until now, Martez has always been in cus­
tody; is that correct?
A. Uh-huh.
Q. Is that yes?
A. Yes. I’m sorry.
Q. And would you explain to the Court how
you [23] maintained contact with Martez during this
period of time?

[

54a
A. I usually go see him twice a week and he calls
me every day.
Q. All right. Do you feel that Martez has a rela­
tionship with your child?
A. Yes, I do.
Q. Martez has a child—another child, an older
girl MarTezia; is that right, am I saying that right?
A. Uh-huh.
Q. Is she part of this extended family as well?
A. Oh, yeah, most definitely; that’s my step­
daughter.
Q. You actually wrote a letter, I included with the
judge, although it was written some time ago and you
asked me to allow you to say something else to the
judge. So, if you would, please, whatever else you would
like to say to the judge.
A. Yeah. I’m just asking if you could be as lenient
as possible. Martez is a really wonderful father and a
really wonderful person. And I believe that he deserves
a second chance at life. And I’m just asking if you could
be as lenient as possible.
MR. BECKETT: All right. Thank you.
[24] I have no other questions, Your Honor.
THE COURT: All right. Thank you very
much. You may step down.

;

55a
MR. BECKETT: No other witnesses, Your
Honor. Thank you.
THE COURT: All right. So the sentencing
profile in this case is a total offense level of 32 now?
No, it’s still 34. I’m sorry.
PROBATION OFFICER: Yes, Your Honor.
THE COURT: 34, a Criminal History Cate­
gory VI; a custody range on Count 1 of 262 to 327, and
on Count 2,120; supervised release as to Count 1, eight
years to life, as to Count 2, one to three years; the fine
range is 35,000 to 8 million; there’s no element of res­
titution; and a special assessment of $100.
MR. BECKETT: I think it might be $200.
THE COURT: I’m sorry, $200.
Mr. Freres, do you have a statement to make?
MR. FRERES: Is the Court ready for argu­
ment?
THE COURT: Yes.
MR. FRERES: May it please the Court,
Mr. Beckett.
MR. BECKETT: Counsel.
[25] MR. FRERES: Your Honor, the govern­
ment’s recommendation in this case would be the low
end of the Sentencing Guideline range for Count 1,
along with 120 months for Count 2, to run concurrent
with supervised release terms; at the minimum, the

56a
eight years on Count 1, and then the three years on
Count 2, again, to run concurrent.
I’m not asking for any sort of a fine or anything.
Calculating relevant conduct as the Court noted is
often inartful. It is not a perfect science. Whenever our
law enforcement sets out to investigate a drug traffick­
ing network, the best they can always do is capturing
a very small portion of whatever the greater whole is.

J

Sometimes pieces though of the investigation itself
gives you a little bit more insight into the capacity of
a drug dealer. Obviously, the source wasn’t here to
testify today, but we do know from the unobjected to
portions of the PSR, sort of what the defendant was
up to.
We know from paragraph—at the end of his arrest,
the defendant gave a statement. In paragraph 15 he
acknowledged that he was able to get large quantities
of methamphetamine from a source in [26] Kentucky.
We know that over at least two instances, he delivered
six ounces of “ice” to the confidential source, and had
arranged a third instance for over three ounces. So
what you can see from this is that a multi-ounce dis­
tribution to this individual was not an uncommon
practice.
The drug trafficking trade is not something that—
I can’t walk up to a drug dealer on the street and just,
say, Hey, I want to buy multiple ounces. It’s based on
relationships; it’s based on history.

57a
So we know from the unobjected to portions of the
PSR, the defendant is a multi-ounce methamphetamine dealer. We also know that he is willing to carry
firearms, and, in particular, a firearm involving an
extended magazine that had a capacity for 30 bullets,
which there is absolutely no purpose on planet earth
for an extended magazine on a handgun except to
instill fear or whatever the case may be. It is not some­
thing that is needed for any sort of lawful purpose.
So when you combine these things, you get a
multi-ounce drug dealer, methamphetamine dealer,
that is willing to carry firearms. That is a significant
danger that the guidelines have always [27] tried to
account for.
In particular in this case, the defendant is a career
offender. When you look at the career offender, the his­
tory, the policy statement, it suggests that it wants the
Court to sentence certain people at or near the maxi­
mum, that’s the language used in the guidelines itself.
And that’s the defendant in this case. It’s very rare. I
know the Court has been doing this a long time. At
least for the ten or so years I’ve been doing this, I see
very few cases involving individuals who have a prior
federal conviction, serve out their time on supervised
release, get a violent felony and then come back for a
second federal conviction. Usually when you get the
benefit of our excellent probation office and those ser­
vices through the first go around, even with revoca­
tions people tend to get their life cleared up, but the
defendant didn’t in this instance. He went out and
committed a violent act, and then he became what we

58a
have here today, which is the multi-ounce methamphetamine dealer carrying firearms during drug deals.
So when you piece all of this together, I do think a
significant sentence is appropriate here. Obviously the
prior federal sentence didn’t serve [28] any form of
deterrence. The defendant just escalated.
So the government’s request I think is to follow the
guidelines, to follow the policy statements and sen­
tence the defendant within the guidelines specifically
at the low end.
Does the Court have any questions for me?
THE COURT: No.
MR. FRERES: Thank you, Your Honor.
THE COURT: Mr. Beckett.
MR. BECKETT: May it please the Court,
Mr. Freres.
The government’s position I think still is that you
get to take what the confidential source said and mag­
nify it as much as you possibly can to treat the defen­
dant as if he was a major level drug dealer. He
certainly is not the street user, small quantity, but he’s
not the drug dealer of the magnitude that the govern­
ment is arguing.
The basic premise that I have under 3553 is that
the enhancement or the argument is based on the cred­
ibility of this confidential source. And the confidential

59a
source cannot even live up to a confidential source
agreement, which is to stay out of trouble.
[29] And having represented confidential sources,
one knows how they tend to exaggerate and magnify
what they have. So we ask that you take that into
consideration in deciding just exactly what level Mr.
Smith is.
With regard to his character, there’s one small
thing in a letter that I saw in there that I thought
spoke of the kind of character that he is. There was a
time when his daughter, who lived in Indianapolis with
her mother, could be brought to him and he could have
custody of his daughter because the daughter’s mother
was having poor economic circumstances; she couldn’t
pay rent; she became homeless. And instead of just
snatching the daughter and saying, Ah-ha, now I have
got custody, Mr. Smith brought the mother and the
daughter to Mattoon where he supported them. And
that speaks of a defendant who is trying to support
himself and support his family in a way that society
doesn’t accept and certainly is unlawful and for which
he is going to be sentenced here today; but it demon­
strates, I think, the kind of character that he has,
maybe a street wise character, but it’s still appropriate.
We’ve indicated in our sentencing commentary
[30] that we feel that 10 to 12 years is a long, long time,
Judge; that’s a long sentence. And that those are appro­
priate. And that the career—the career criminal guide­
lines—here is what happens: He is Category III; he is
all of a sudden Category VI. Statutorily, he becomes a

60a
mandatory minimum of 10 years because of 851 on a
prior conspiracy. And then the prior conspiracy also
boosts him into career criminal status. We submit,
Your Honor, that’s a heavy, heavy, heavy weight on the
scale of justice in this case.
So, we are asking for some measure of lenience if
the Court in your discretion feels that’s appropriate.
We did note in there that—I’ve gone over the con­
ditions of supervised release. The defendant under­
stands them. You don’t have to read them or explain
any reasons why.
He would like to be recommended for Terre Haute
or some other facility that is close to Mattoon as possi­
ble so that he can have his relationship with his family.
THE COURT: Let’s talk about the condi­
tions of supervision for a moment. Probation sent those
out to both sides. Did you sit down with your [31] client
and carefully and go over them?
MR. BECKETT: I did, Your Honor.
THE COURT: Does he have an objection to
any of them?
MR. BECKETT: He does not, Your Honor.
THE COURT: Does he waive word-for-word
reading of them?
MR. BECKETT: He does, Your Honor.
THE COURT: Do you also waive?

61a
MR. FRERES: Yeah. I’m sorry. Yes, Your
Honor.
THE COURT: Thank you.
MR. BECKETT: Thank you.
THE COURT:
seated if he wishes.

Sir, actually you can stay

Pull that microphone over in front of you and keep
your voice up.
Is there anything you would like to say on your
own behalf before I impose sentence?
THE DEFENDANT: Yes, Your Honor.
THE COURT: Please go ahead.
THE DEFENDANT: As I sit here before you
today, I can’t help but to admit that I’m a little scared.
I’ve never been in a position where I have ever faced as
much time before, and the thought [32] frightens me.
During the 18 months that I have been incarcer­
ated, I have had time to sit and think about the role
that I played as a drug dealer, and I also understand
the seriousness of it.
I caught my first and only drug conviction in 2008
when I was 19 years old, and at the time it was the first
charge that I had, and it was a conspiracy charge. Back
then I was young and ignorant of my actions and I felt
as though I didn’t get caught for selling drugs because
I actually wasn’t. The people that I was dealing with

62a
was, and I didn’t realize that by me knowing they were,
I was conspiring with them.
Your Honor, I do understand the role that I played
this time around and I’m ashamed of it. I allowed my
addiction, greed, selfishness, and self-gratification to
cloud my better judgement. During the short period of
time that I was finally able to provide for my family
financially. I was lying though. I was taking from other
people’s families and putting my own life in jeopardy.
My current situation has made me realize that
every action has a reaction. And I’m sorry that my
actions has caused other people pain and [33] suffer­
ing, and for that I’m very remorseful. These last 18
months has been the most hardest and difficult time of
my life. Before I got locked up, I was a full-time dad. I
had full custody of my daughter. But since I’ve been
locked up, I haven’t seen my baby one time and that
alone hurts me. I figure I will get so much time that my
daughter may be in bad situation in an environment
due to the bad parental skills on her mother’s behalf
because she treat my daughter like a friend instead of
a child, and I feel that she’s forcing her to grow up too
fast. I know that I might not be considered the best
parent because of my current situation, but I’ve made
my daughter my first priority and never exposed her
to what I was doing.
Since my incarceration, I was blessed with my first
and only son and that makes me and his mom have six
kids total. For the sake of all of our kids, it’s important,
it’s imperative that I change my ways and become a

63a
positive and productive role model to our children. I’m
done with the fact that I wasn’t present to see my first
son born. My older brother was murdered three days
later. I was unable to attend his funeral, and then five
months later my youngest brother was murdered. In
the middle of [34] three boys, I never would have
thought that I would lose both of my brothers in a fivemonth span.
I can’t begin to tell you how much it hurt me espe­
cially while being locked up and to know that I’m the
only remaining child my mom has left, and I can’t be
there to console her. The pain that I see on her face
during our visits kills me and make me realize how
much she needs me out there with her. As it stands, me
and my kids are all she has left of her bloodline
because neither one of my brothers had kids.
I plan to take the time that I’m sentenced to fully
rehabilitate myself and grasp as many trades as I can
as well as take educational programs provided for me
so that I can be successful upon my release and never
have to involve myself in any illegal activities ever
again.
Your Honor, I just don’t have it in me to be a part
of this lifestyle anymore. I’m so tired of doing time and
giving away my years to the system especially when I
know that it’s going to be the same.
I’m determined when I get out to get me a job that
I can make a career out of it and help my fiancee raise
our kids while I show my mom that I [35] will be okay,
and that I will make something of myself before her

64a
time is up. I want her to know that I did become a hard
working man and provide for my family in a legitimate
may.
Truck driving is a field that I will be pursuing
upon my release, if I don’t qualify with one of the
trades provided for me in prison.
Your Honor, I stand before you today begging to
actually to please be as lenient on me as you possibly
can and please don’t too harshly hold my past against
me and know I can still have a bright future ahead of
me and that’s what I’m looking for.
I read a quote that says, “As a child, I thought as a
child. When I grew up, I put those childish thoughts
away.” I want you and this court to know that I put
childish ways of thinking away.
Your Honor, I stand before you today no matter the
outcome ready to be a man. Thank you for allowing me
to speak, Your Honor.
THE COURT: All right. Thank you very
much.
The Court adopts the factual findings and guide­
line application as contained in the Presentence Report.
I’m first to look at the facts of the crime, criminal
activity involved. This has been [36] characterized, the
amount of methamphetamine that you actually sold is
subject to serious question, but there’s no doubt in my
mind reading this Presentence Report that you were a
dealer, dealing in large amounts of methamphetamine.

65a
There’s just no doubt about that. And there’s no doubt
that you carried this gun hi the car. Although at the
time you were stopped by the police, you didn’t have
any methamphetamine on you at that time. So this,
this is a very—this is a serious, a serious drug crime.
I would also note this firearm, that you had had an
extended magazine capable of carrying I think 20.
MR. FRERES: 30 Your Honor.
THE COURT: Okay. That’s a pretty serious
weapon. I’m not quite sure what you thought that you
might do with that. Looking at your background, at the
age of 19, you were convicted of conspiracy to possess
with intent to distribute and to distribute in excess of
50 grams of crack cocaine. That was in the Southern
District of Indiana. You were sentenced, to 57 months
imprisonment and three years supervised release.
Your supervised release began in September of 2011.
[37] In November, there was a Petition to Revoke
and that was granted and you were sentenced to 13
additional months.
That was due to your arrest for possession of a
firearm and for charges of burglary resulting in bodily
injury.
And then in 2012 at the age of 23, attempted
armed robbery. You entered the residence of the person
with the intent to rob. You were in possession of a fire­
arm. The burglary charges were dropped. You were
sentenced to seven years for that. I’m not quite sure
I understand this. You were received by the Indiana

66a
Department of Corrections in April of 2013 and
released in December of 2014. It doesn’t sound like
seven years, but whatever.
So you end up with a total criminal history score
ofVI.
A bunch of other arrests that did not result in a
conviction and I did not consider those in imposing
sentence.
And personal and family history is absolute disas­
ter. Your father was stabbed to death at the age of 32
when you were six years old. Your brother Bart was
shot and killed in December 2018 in [38] Atlanta. Your
other brother, Mark, was shot and killed at the age of
29 in Mattoon, Illinois. And then your mother was con­
victed of manslaughter and served time in prison for
that. Not a good childhood. It looks like you’ve made
sincere efforts to try to care for your daughter. You
have one son that I think was just recently in the court­
room. Good physical condition. No history of mental or
emotional health problems.
In term of substance abuse: It looks like marijuana,
alcohol. You did complete a—successfully complete a
residential substance abuse treatment program. That’s
great.
You don’t have—oh, you do have a GED. That’s
very good.
Your net worth is zero.

67a
The sentence that I impose should reflect the seri­
ousness of the offense, promote respect for the law, pro­
vide just punishment, provide adequate deterrence to
others, and specifically deter you from further criminal
conduct.
This sentence is going to be a major life altering
event for you because you’re going to be going away for
a long time, and how you spend your time while you’re
away will in large part determine [39] how you spend
the rest of your life. If you go off to prison and listen to
all of those voices saying it’s okay, it’s not your fault,
you couldn’t have done any differently. You couldn’t
have made it. You won’t make it. If you listen to those
voices, then when you do get out, you won’t make it.
You have to find a new strength inside of yourself, cer­
tainly, to cover those very dark days when you’re going
to be in prison, but also looking forward to coming out
into the light and hopefully living the rest of your life
in a meaningful way.
These—there’s no way that based on this record
that I can do what your attorney is asking me to do. I
also believe that the bottom of the guideline range on
Count 2 is too high. So I’m going to be reflecting that
in my sentence. Excuse me. The bottom of the guideline
range on Count 1 is 262.
Pursuant to the Sentencing Reform Act of 1984,
the defendant is hereby committed to the custody of
the Bureau of Prisons for a period of 214 months.
That’s four years less than the bottom of the guideline
range.

68a
That term will consist of 214 months on count—on
count—let’s see. Hold on. I’m [40] sorry. I’m confused.
Yeah. 214 months on Count 1, and 120 months on
Count 2 to be served concurrently.
You do not have the ability to pay a fine and no fine
is imposed.
Following your release from custody, you shall
serve an eight-year term of supervised release. That
will consist of eight years on Count 1, and three years
on Count 2 to be served concurrently.
While on supervision, you shall not commit another
federal, state, or local crime.
You shall not possess a controlled substance.
You shall submit to one drug test within 15 days
of release and at least two drug tests thereafter as
directed.
You shall cooperate in the collection of DNA as
directed.
You shall comply with all of the conditions that
we’ve talked about, that parties received. You’ve looked
at them and approved. And I have read them carefully
and adopted them myself because I believe that those
are each necessary components in the efforts to try to
help you successfully complete supervised release.
[41] Was there a waiver in this case?
MR. BECKETT: No.

69a
THE COURT: You do, of course, have the
right to file a notice of appeal. If it is your wish to
appeal, I instruct you that any notice of appeal must
be filed with the Clerk of the Court within 14 days
of today’s date, as your attorney, Mr. Beckett has an
absolute responsibility to file that notice for you, if
that is your wish.
Do you understand?
THE DEFENDANT: Yes.
THE COURT: Now in terms of recommenda­
tions to the Bureau of Prisons, I assume that you want
me to recommend the lowest level of security as close
to his family as possible?
MR. BECKETT: That’s correct.
THE COURT: I’m guessing, is that Terre
Haute?
MR. BECKETT: Right.
THE COURT: I don’t know if they will put
him in the camp to begin with because of the amount
of time, but they do have both there. So hopefully, you
can stay there.
I’ll recommend during the time that you are there
that you be able to receive whatever drug [42] treat­
ment you can receive, any vocational or educational
training you can receive.
Anything else?

70a
MR. FRERES: Not on behalf of the govern­
ment, Your Honor.
MR. BECKETT: Judge, I have spoken about
the appeal with Mr. Smith and he is going to direct me
to file a notice of appeal. Before I do that, I wondered if
Miss Thompson from my firm could also be appointed
to assist me, if I could do it at this level then I don’t
have to do it with the Seventh Circuit.
THE COURT: That’s fine. I’m willing to do
that.
MR. BECKETT: Thank you.
THE COURT: We’ll add her to the—add her
as an attorney of record.
THE CLERK Is she admitted?
THE COURT: Oh, sure, yeah.
Give the clerk his name.
MR. BECKETT:

I will. Thank you.

THE COURT: I would ask the marshal, if
you could, give him five minutes. If you want to turn
around in your seat, don’t stand up.
Mom, if you come up in the front row, you [43] can
go up there. If you want to go get the lady with the
baby, you can bring her in, talk to her for a couple of
minutes before you leave the courtroom.

71a
MR. BECKETT: Thank you, Your Honor.
MR. FRERES: Thank you.
(Court adjourned, 2:54 p.m.)

I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled
matter.
s/Nancv Mersot
Court Reporter

Date: January 30, 2019

J

72a
APPENDIX D
U.S. CODE PROVISIONS
21 U.S.C. § 846. Attempt and conspiracy
Any person who attempts or conspires to commit
any offense defined in this subchapter shall be sub­
ject to the same penalties as those prescribed for the
offense, the commission of which was the object of the
attempt or conspiracy.

i

I

73a
28 U.S.C. § 991. United States Sentencing Com­
mission; establishment and purposes
(a) There is established as an independent commis­
sion in the judicial branch of the United States a
United States Sentencing Commission which shall
consist of seven voting members and one nonvoting
member. The President, after consultation with repre­
sentatives of judges, prosecuting attorneys, defense
attorneys, law enforcement officials, senior citizens,
victims of crime, and others interested in the criminal
justice process, shall appoint the voting members of
the Commission, by and with the advice and consent
of the Senate, one of whom shall be appointed, by and
with the advice and consent of the Senate, as the Chair
and three of whom shall be designated by the Presi­
dent as Vice Chairs. At least 3 of the members shall be
Federal judges selected after considering a list of six
judges recommended to the President by the Judicial
Conference of the United States. Not more than four of
the members of the Commission shall be members of
the same political party, and of the three Vice Chairs,
no more than two shall be members of the same polit­
ical party. The Attorney General, or the Attorney
General’s designee, shall be an ex officio, nonvoting
member of the Commission. The Chair, Vice Chairs,
and members of the Commission shall be subject to
removal from the Commission by the President only
for neglect of duty or malfeasance in office or for other
good cause shown.
(b) The purposes of the United States Sentencing
Commission are to—

74a
(1) establish sentencing policies and practices for
the Federal criminal justice system that—
(A) assure the meeting of the purposes of
sentencing as set forth in section 3553(a)(2) of
title 18, United States Code;
(B) provide certainty and fairness in meet­
ing the purposes of sentencing, avoiding
unwarranted sentencing disparities among
defendants with similar records who have
been found guilty of similar criminal conduct
while maintaining sufficient flexibility to per­
mit individualized sentences when warranted
by mitigating or aggravating factors not taken
into account in the establishment of general
sentencing practices; and
(C) reflect, to the extent practicable, ad­
vancement in knowledge of human behavior
as it relates to the criminal justice process;
and
(2) develop means of measuring the degree to
which the sentencing, penal, and correctional
practices are effective in meeting the purposes of
sentencing as set forth in section 3553(a)(2) of title
18, United States Code.

75a
28 U.S.C. § 994. Duties of the Commission
(a) The Commission, by affirmative vote of at least
four members of the Commission, and pursuant to its
rules and regulations and consistent with all pertinent
provisions of any Federal statute shall promulgate
and distribute to all courts the race, sex, national
origin, creed, and socioeconomic status of offenders of
the United States and to the United States Probation
System—
(1) guidelines, as described in this section, for
use of a sentencing court in determining the sen­
tence to be imposed in a criminal case, includ­
ing—
(A) a determination whether to impose a
sentence to probation, a fine, or a term of
imprisonment;
(B) a determination as to the appropriate
amount of a fine or the appropriate length of
a term of probation or a term of imprison­
ment;
(C) a determination whether a sentence to a
term of imprisonment should include a
requirement that the defendant be placed on
a term of supervised release after imprison­
ment, and, if so, the appropriate length of such
a term;
(D) a determination whether multiple sen­
tences to terms of imprisonment should be or­
dered to run concurrently or consecutively;
and

76a
(E) a determination under paragraphs (6)
and (11) 1 of section 3563(b) of title 18;
(2) general policy statements regarding applica­
tion of the guidelines or any other aspect of sen­
tencing or sentence implementation that in the
view of the Commission would further the pur­
poses set forth in section 3553(a)(2) of title 18,
United States Code, including the appropriate use
of—
(A) the sanctions set forth in sections 3554,
3555, and 3556 of title 18;
(B) the conditions of probation and super­
vised release set forth in sections 3563(b) and
3583(d) of title 18;
(C) the sentence modification provisions set
forth in sections 3563(c), 3564, 3573, and
3582(c) of title 18;
(D) the fine imposition provisions set forth
in section 3572 of title 18;
(E) the authority granted under rule 11(e)(2)
of the Federal Rules of Criminal Procedure to
accept or reject a plea agreement entered
into pursuant to rule 11(e)(1); and
(F) the temporary release provisions set
forth in section 3622 of title 18, and the prere­
lease custody provisions set forth in section
3624(c) of title 18; and
(3) guidelines or general policy statements re­
garding the appropriate use of the provisions for
revocation of probation set forth in section 3565 of
title 18, and the provisions for modification of the

' 77a
term or conditions of supervised release and revo­
cation of supervised release set forth in section
3583(e) of title 18.
(b)(1) The Commission, in the guidelines promul­
gated pursuant to subsection (a)(1), shall, for each cat­
egory of offense involving each category of defendant,
establish a sentencing range that is consistent with all
pertinent provisions of title 18, United States Code.
(2) If a sentence specified by the guidelines
includes a term of imprisonment, the maximum of the •
range established for such a term shall not exceed the
minimum of that range by more than the greater of 25
percent or 6 months, except that, if the minimum term
of the range is 30 years or more, the maximum may be
life imprisonment.
(c) The Commission, in establishing categories of of­
fenses for use in the guidelines and policy statements
governing the imposition of sentences of probation, a
fine, or imprisonment, governing the imposition of
other authorized sanctions, governing the size of a fine
or the length of a term of probation, imprisonment, or
supervised release, and governing the conditions of
probation, supervised release, or imprisonment, shall
consider whether the following matters, among others,
have any relevance to the nature, extent, place of ser­
vice, or other incidents 2 of an appropriate sentence,
and shall take them into account only to the extent
that they do have relevance—
(1) the grade of the offense;

78a
(2) the circumstances under which the offense
was committed which mitigate or aggravate the
seriousness of the offense;
(3) the nature and degree of the harm caused by
the offense, including whether it involved prop­
erty, irreplaceable property, a person, a number of
persons, or a breach of public trust;
(4) the community view of the gravity of the of­
fense;
(5) the public concern generated by
offense;

the

(6) the deterrent effect a particular sentence
may have on the commission of the offense by oth­
ers; and
(7) the current incidence of the offense in the
community and in the Nation as a whole.
(d) The Commission in establishing categories of
defendants for use in the guidelines and policy state­
ments governing the imposition of sentences of pro­
bation, a fine, or imprisonment, governing the
imposition of other authorized sanctions, governing
the size of a fine or the length of a term of probation,
imprisonment, or supervised release, and governing
the conditions of probation, supervised release, or im­
prisonment, shall consider whether the following mat­
ters, among others, with respect to a defendant, have
\any relevance to the nature, extent, place of service, or
other incidents 2 of an appropriate sentence, and shall
take them into account only to the extent that they do
have relevance—

79a
(1) age;
(2) education;
(3) vocational skills;
(4) mental and emotional condition to the extent
that such condition mitigates the defendant’s cul­
pability or to the extent that such condition is oth­
erwise plainly relevant;
(5) physical condition, including drug dependence;
(6) previous employment record;
(7) family ties and responsibilities;
(8) community ties;
(9) role in the offense;
(10) criminal history; and
(11) degree of dependence upon criminal activ­
ity for a livelihood.
The Commission shall assure that the guidelines
and policy statements are entirely neutral as to
the race, sex, national origin, creed, and socioeco­
nomic status of offenders.
(e) The Commission shall assure that the guidelines
and policy statements, in recommending a term of im­
prisonment or length of a term of imprisonment, reflect
the general inappropriateness of considering the edu­
cation, vocational skills, employment record, family
ties and responsibilities, and community ties of the de­
fendant.
(f) The ^Commission, in promulgating guidelines
pursuant to subsection (a)(1), shall promote the

80a
purposes set forth in section 991(b)(1), with particular
attention to the requirements of subsection 991(b)(1)(B)
for providing certainty and fairness in sentencing and
reducing unwarranted sentence disparities.
(g) The Commission, in promulgating guidelines pur­
suant to subsection (a)(1) to meet the purposes of sen­
tencing as set forth in section 3553(a)(2) of title 18,
United States Code, shall take into account the nature
and capacity of the penal, correctional, and other facil­
ities and services available, and shall make recommen­
dations concerning any change or expansion in the
nature or capacity of such facilities and services that
might become necessary as a result of the guidelines
promulgated pursuant to the provisions of this chapter.
The sentencing guidelines prescribed under this chap­
ter shall be formulated to minimize the likelihood that
the Federal prison population will exceed the capacity
of the Federal prisons, as determined by the Commission.
(h) The Commission shall assure that the guidelines
specify a sentence to a term of imprisonment at or near
the maximum term authorized for categories of de­
fendants in which the defendant is eighteen years old
or older and—
(1) has been convicted of a felony that is—
(A) a crime of violence; or
(B) an offense described in section 401 of the
Controlled Substances Act (21 U.S.C. 841),
sections 1002(a), 1005, and 1009 of the Con­
trolled Substances Import and Export Act (21
U.S.C. 952(a), 955, and 959), and chapter 705
of title 46; and

81a
(2) has previously been convicted of two or more
prior felonies, each of which is—
(A) a crime of violence; or
(B) an offense described in section 401 of the
Controlled Substances Act (21 U.S.C. 841),
sections 1002(a), 1005, and 1009 of the Con­
trolled Substances Import and Export Act (21
U.S.C. 952(a), 955, and 959), and chapter 705
of title 46.
(i) The Commission shall assure that the guidelines
specify a sentence to a substantial term of imprison­
ment for categories of defendants in which the defend­
ant—
(1) has a history of two or more prior Federal,
State, or local felony convictions for offenses com­
mitted on different occasions;
(2) committed the offense as part of a pattern of
criminal conduct from which the defendant de­
rived a substantial portion of the defendant’s in­
come;
(3) . committed the offense in furtherance of a con­
spiracy with three or more persons engaging in a
pattern of racketeering activity in which the de­
fendant participated in a managerial or supervi­
sory capacity;
(4) committed a crime of violence that consti­
tutes a felony while on release pending trial, sen­
tence, or appeal from a Federal, State, or local
felony for which he was ultimately convicted; or
(5) committed a felony that is set forth in section
401 or 1010 of the Comprehensive Drug Abuse

82a
Prevention and Control Act of 1970 (21 U.S.C. 841
and 960), and that involved trafficking in a sub­
stantial quantity of a controlled substance.
(j) The Commission shall insure that the guidelines
reflect the general appropriateness of imposing a sen­
tence other than imprisonment in cases in which the
defendant is a first offender who has not been con­
victed of a crime of violence or an otherwise serious
offense, and the general appropriateness of imposing a
term of imprisonment on a person convicted of a crime
of violence that results in serious bodily injury.
(k) The Commission shall insure that the guidelines
reflect the inappropriateness of imposing a sentence to
a term of imprisonment for the purpose of rehabilitat­
ing the defendant or providing the defendant with
needed educational or vocational training, medical
care, or other correctional treatment.
(l) The Commission shall insure that the guidelines
promulgated pursuant to subsection (a)(1) reflect—
(1) the appropriateness of imposing an incremen­
tal penalty for each offense in a case in which a
defendant is convicted of—
(A) multiple offenses committed in the same
course of conduct that result in the exercise of
ancillary jurisdiction over one or more of the
offenses; and
(B) multiple offenses committed at different
times, including those cases in which the sub­
sequent offense is a violation of section 3146
(penalty for failure to appear) or is committed

83a
while the person is released pursuant to the
provisions of section 3147 (penalty for an of­
fense committed while on release) of title 18;
and
(2) the general inappropriateness of imposing con­
secutive terms of imprisonment for an offense of
conspiring to commit an offense or soliciting com­
mission of an offense and for an offense that was
the sole object of the conspiracy or solicitation.
(m) The Commission shall insure that the guidelines
reflect the fact that, in many cases, current sentences
do not accurately reflect the seriousness of the offense.
This will require that, as a starting point in its devel­
opment of the initial sets of guidelines for particular
categories of cases, the Commission ascertain the av­
erage sentences imposed in such categories of cases
prior to the creation of the Commission, and in cases
involving sentences to terms of imprisonment, the
length of such terms actually served. The Commission
shall not be bound by such average sentences, and
shall independently develop a sentencing range that is
consistent with the purposes of sentencing described
in section 3553(a)(2) of title 18, United States Code.
(n) The Commission shall assure that the guidelines
reflect the general appropriateness of imposing a
lower sentence than would otherwise be imposed, in­
cluding a sentence that is lower than that established
by statute as a minimum sentence, to take into account
a defendant’s substantial assistance in the investiga­
tion or prosecution of another person who has commit­
ted an offense.

84a
(o) The Commission periodically shall review and re­
vise, in consideration of comments and data coming to
its attention, the guidelines promulgated pursuant to
the provisions of this section. In fulfilling its duties and
in exercising its powers, the Commission shall consult
with authorities on, and individual and institutional
representatives of, various aspects of the Federal crim­
inal justice system. The United States Probation Sys­
tem, the Bureau of Prisons, the Judicial Conference of
the United States, the Criminal Division of the United
States Department of Justice, and a representative of
the Federal Public Defenders shall submit to the Com­
mission any observations, comments, or questions per­
tinent to the work of the Commission whenever they
believe such communication would be useful, and
shall, at least annually, submit to the Commission a
written report commenting on the operation of the
Commission’s guidelines, suggesting changes in the
guidelines that appear to be warranted, and otherwise
assessing the Commission’s work.
(p) The Commission, at or after the beginning of a
regular session of Congress, but not later than the first
day of May, may promulgate under subsection (a) of
this section and submit to Congress amendments to the
guidelines and modifications to previously submitted
amendments that have not taken effect, including
modifications to the effective dates of such amend­
ments. Such an amendment or modification shall be
accompanied by a statement of the reasons therefor
and shall take effect on a date specified by the Com­
mission, which shall be no earlier than 180 days after

85a
being so submitted and no later than the first day of
November of the calendar year in which the amend­
ment or modification is submitted, except to the extent
that the effective date is revised or the amendment is
otherwise modified or disapproved by Act of Congress.
(q) The Commission and the Bureau of Prisons shall
submit to Congress an analysis and recommendations
concerning maximum utilization of resources to deal
effectively with the Federal prison population. Such re­
port shall be based upon consideration of a variety of
alternatives, including—
(1) modernization of existing facilities;
(2) inmate classification and periodic review of
such classification for use in placing inmates in
the least restrictive facility necessary to ensure
adequate security; and
(3) use of existing Federal facilities, such as
those currently within military jurisdiction.
(r) The Commission, not later than two years after
the initial set of sentencing guidelines promulgated
under subsection (a) goes into effect, and thereafter
whenever it finds it advisable, shall recommend to the
Congress that it raise or lower the grades, or otherwise
modify ‘the maximum penalties, of those offenses for
which such an adjustment appears appropriate.
(s) The Commission shall give due consideration to
any petition filed by a defendant requesting modifica­
tion of the guidelines utilized in the sentencing of such

86a
defendant, on the basis of changed circumstances un­
related to the defendant, including changes in—
(1) the community view of the gravity of the of­
fense;
(2) the public concern generated by the offense;
and
(3) the deterrent effect particular sentences may
have on the commission of the offense by others.
(t) The Commission, in promulgating general policy
statements regarding the sentencing modification pro­
visions in section 3582(c)(1)(A) of title 18, shall de­
scribe what should be considered extraordinary and
compelling reasons for sentence reduction, including
the criteria to be applied and a list of specific examples.
Rehabilitation of the defendant alone shall not be con­
sidered an extraordinary and compelling reason.
(u) If the Commission reduces the term of imprison­
ment recommended in the guidelines applicable to a
particular offense or category of offenses, it shall spec­
ify in what circumstances and by what amount the
sentences of prisoners serving terms of imprisonment
for the offense may be reduced.
(v) The Commission shall ensure that the general
policy statements promulgated pursuant to subsection
(a)(2) include a policy limiting consecutive terms of im­
prisonment for an offense involving a violation of a
general prohibition and for an offense involving a vi­
olation of a specific prohibition encompassed within
the general prohibition.

87a
(w)(l) The Chief Judge of each district court shall en­
sure that, within 30 days following entry of judgment
in every criminal case, the sentencing court submits to
the Commission, in a format approved and required by
the Commission, a written report of the sentence, the
offense for which it is imposed, the age, race, sex of the
offender, and information regarding factors made rele­
vant by the guidelines. The report shall also include—
(A) the judgment and commitment order;
(B) the written statement of reasons for the sen­
tence imposed (which shall include the reason for
any departure from the otherwise applicable
guideline range and which shall be stated on the
written statement of reasons form issued by the
Judicial Conference and approved by the United
States Sentencing Commission);
(C) any plea agreement;
(D) the indictment or other charging document;
(E) the presentence report; and
(F) any other information as the Commission
finds appropriate.
The information referred to in subparagraphs (A)
through (F) shall be submitted by the sentencing
court in a format approved and required by the Com­
mission.
(2) The Commission shall, upon request, make
available to the House and Senate Committees on
the Judiciary, the written reports and all underly­
ing records accompanying those reports described

88a
in this section, as well as other records received
from courts.
(3) The Commission shall submit to Congress at
least annually an analysis of these documents, any
recommendations for legislation that the Commis­
sion concludes is warranted by that analysis, and an
accounting of those districts that' the Commission
believes have not submitted the appropriate infor­
mation and documents required by this section.
(4) The Commission shall make available to the
Attorney General, upon request, such data files as
the Commission itself may assemble or maintain
in electronic form as a result of the information
submitted under paragraph (1). Such data files
shall be made available in electronic form and
shall include all data fields requested, including
the identity of the sentencing judge.
(x) The provisions of section 553 of title 5, relating to
publication in the Federal Register and public hearing
procedure, shall apply to the promulgation of guide­
lines pursuant to this section.
(y) The Commission, in promulgating guidelines pur­
suant to subsection (a)(1), may include, as a component
of a fine, the expected costs to the Government of any
imprisonment, supervised release, or probation sen­
tence that is ordered.

89a
2018 U.S. SENTENCING
GUIDELINES PROVISIONS
§ 1B1.7. Significance of Commentary
The Commentary that accompanies the guideline sec­
tions may serve a number of purposes. First, it may
interpret the guideline or explain how it is to be
applied. Failure to follow such commentary could con­
stitute an incorrect application of the guidelines, sub­
jecting the sentence to possible reversal on appeal. See
18 U.S.C. § 3742. Second, the commentary may suggest
circumstances which, in the view of the Commission,
may warrant departure from the guidelines. Such com­
mentary is to be treated as the legal equivalent of a
policy statement. Finally, the commentary may provide
background information, including factors considered
in promulgating the guideline or reasons underly­
ing promulgation of the guideline. As with a policy
statement, such commentary may provide guidance in
assessing the reasonableness of any departure from
the guidelines.
Commentary
Portions of this document not labeled as guidelines or
commentary also express the policy of the Commission
or provide guidance as to the interpretation and appli­
cation of the guidelines. These are to be construed as
commentary and thus have the force of policy state­
ments.
“[Clommentary in the Guidelines Manual that inter­
prets or explains a guideline is authoritative unless it

90a
violates the Constitution or a federal statute, or is
inconsistent with, or a plainly erroneous reading of,
that guideline.” Stinson v. United States, 508 U.S. 36,
38 (1993).
Historical Effective November 1,1987. Amended effective November 1,1993 (amendment 498).
Note

91a
§ 4B1.1 Career Offender
(a) A defendant is a career offender if (1) the defen­
dant was at least eighteen years old at the time the
defendant committed the instant offense of conviction;
(2) the instant offense of conviction is a felony that is
either a crime of violence or a controlled substance
offense; and (3) the defendant has at least two prior
felony convictions of either a crime of violence or a con­
trolled substance offense.
(b) Except as provided in subsection (c), if the offense
level for a career offender from the table in this sub­
section is greater than the offense level otherwise
applicable, the offense level from the table in this sub­
section shall apply. A career offender’s criminal history
category in every case under this subsection shall be
Category VI.
Offense Statutory Maximum

Offense Level*

(1) Life

37

(2) 25 years or more

34

(3) 20 years or more, but less
than 25 years

32

(4) 15 years or more, but less
than 20 years

29

(5) 10 years or more, but less
than 15 years

24

(6) 5 years or more, but less
than 10 years

17

92a
Offense Statutory Maximum

Offense Level*

(7) More than 1 year, but less
than 5 years

12.

* If an adjustment from §3E1.1 (Acceptance of Respon­
sibility) applies, decrease the offense level by the num­
ber of levels corresponding to that adjustment.
(c) If the defendant is convicted of 18 U.S.C. § 924(c)
or § 929(a), and the defendant is determined to be a
career offender under subsection (a), the applicable
guideline range shall be determined as follows:
(1) If the only count of conviction is 18 U.S.C.
§ 924(c) or § 929(a), the applicable guideline range
shall be determined using the table in subsection
(c)(3).
(2) In the case of multiple counts of conviction in
which at least one of the counts is a conviction
other than a conviction for 18 U.S.C. § 924(c) or
§ 929(a), the guideline range shall be the greater
of—
(A) the guideline range that results by add­
ing the mandatory minimum consecutive pen­
alty required by the 18 U.S.C. § 924(c) or
§ 929(a) count(s) to the minimum and the
maximum of the otherwise applicable guide­
line range determined for the count(s) of con­
viction other than the 18 U.S.C. § 924(c) or
§ 929(a) count(s); and
(B) the guideline range determined using
the table in subsection (c)(3).

93a
(3) Career Offender Table
§ 924(c) or § 929(a) Offenders

for

18 U.S.C.

§3E1.1 Reduction

Guideline Range for
the 18 U.S.C.§ 924(c)
or § 929(a) Count(s)

No reduction

360-life

2-level reduction

292-365

3-level reduction

262-327.
Commentary

Application Notes:
1. Definitions.—“Crime of violence” “controlled
substance offense” and “two prior felony convic­
tions” are defined in § 4B1.2.
2. “Offense Statutory Maximum”.—“Offense Stat­
utory Maximum” for the purposes of this guideline,
refers to the maximum term of imprisonment author­
ized for the offense of conviction that is a crime of vio­
lence or controlled substance offense, including any
increase in that maximum term under a sentencing
enhancement provision that applies because of the
defendant’s prior criminal record (such sentencing
enhancement provisions are contained, for example,
in 21 U.S.C. § 841(b)(1)(A), (B), (C), and (D)). For exam­
ple, in a case in which the statutory maximum term
of imprisonment under 21 U.S.C. § 841(b)(1)(C) is
increased from twenty years to thirty years because
the defendant has one or more qualifying prior drug

94a
convictions, the “Offense Statutory Maximum” for that
defendant for the purposes of this guideline is thirty
years and not twenty years. If more than one count of
conviction is of a crime of violence or controlled sub­
stance offense, use the maximum authorized term of
imprisonment for the count that has the greatest
offense statutory maximum.
3. Application of Subsection (c).—
(A) In General.—Subsection (c) applies in any
case in which the defendant (i) was convicted of
violating 18 U.S.C. § 924(c) or § 929(a); and (ii) as
a result of that conviction (alone or in addition to
another offense of conviction), is determined to be
a career offender under § 4Bl.l(a).
(B) Subsection (c)(2).—To determine the greater
guideline range under subsection (c)(2), the court
shall use the guideline range with the highest
minimum term of imprisonment.
(C) “Otherwise Applicable Guideline Range”.—
For purposes of subsection (c)(2)(A), “otherwise
applicable guideline range” for the count(s) of con­
viction other than the 18 U.S.C. § 924(c) or 18
U.S.C. § 929(a) count(s) is determined as follows:
(i) If the count(s) of conviction other than
the 18 U.S.C. § 924(c) or 18 U.S.C. § 929(a)
count(s) does not qualify the defendant as
a career offender, the otherwise applicable
guideline range for that count(s) is the guide­
line range determined using: (I) the Chapter
Two and Three offense level for that count(s);
and (II) the appropriate criminal history

95a
category determined under § 4A1.1 (Criminal
History Category) and § 4A1.2 (Definitions
and Instructions for Computing Criminal His­
tory).
(ii) ^ If the count(s) of conviction other than
the 18 U.S.C. § 924(c) or 18 U.S.C. § 929(a)
count(s) qualifies the defendant as a career
offender, the otherwise applicable guideline
range for that count(s) is the guideline range
determined for that count(s) under § 4Bl.l(a)
and (b).
(D) Imposition of Consecutive Term of Impris­
onment.—In a case involving multiple counts, the
sentence shall be imposed according to the rules
in subsection (e) of §5G1.2 (Sentencing on Multi­
ple Counts of Conviction).
(E) Example.—The following example illustrates
the application of subsection (c)(2) in a multiple
count situation:
The defendant is convicted of one count of violat­
ing 18 U.S.C. § 924(c) for possessing a firearm in
furtherance of a drug trafficking offense (5 year
mandatory minimum), and one count of violating
21 U.S.C. § 841(b)(1)(B) (5 year mandatory mini­
mum, 40 year statutory maximum). Applying sub­
section (c)(2)(A), the court determines that the
drug count (without regard to the 18 U.S.C.
§ 924(c) count) qualifies the defendant as a career
offender under §4Bl.l(a). Under § 4Bl.l(a), the
otherwise applicable guideline range for the drug
count is 188-235 months (using offense level 34
(because the statutory maximum for the drug
count is 40 years), minus 3 levels for acceptance of

96a
responsibility, and criminal history category VI).
The court adds 60 months (the minimum required
by 18 U.S.C. § 924(c)) to the minimum and the
maximum of that range, resulting in a guideline
range of 248-295 months. Applying subsection
(c)(2)(B), the court then determines the career
offender guideline range from the table in subsec­
tion (c)(3) is 262-327 months. The range with the
greatest minimum, 262-327 months, is used to
impose the sentence in accordance with §5G1.2(e).
4. Departure Provision for State Misdemeanors.—
In a case in which one or both of the defendant’s “two
prior felony convictions” is based on an offense that
was classified as a misdemeanor at the time of sen­
tencing for the instant federal offense, application of
the career offender guideline may result in a guide­
line range that substantially overrepresents the
seriousness of the defendant’s criminal history or sub­
stantially overstates the seriousness of the instant
offense. In such a case, a downward departure may
be warranted without regard to the limitation in
§ 4A1.3(b)(3)(A).
Background: Section 994(h) of Title 28, United States
Code, mandates that the Commission assure that cer­
tain “career” offenders receive a sentence of imprison­
ment “at or near the maximum term authorized.”
Section 4B1.1 implements this directive, with the
definition of a career offender tracking in large part
the criteria set forth in 28 U.S.C. § 994(h). However,
in accord with its general guideline promulgation au­
thority under 28 U.S.C. § 994(aMf), and its amend­
ment authority under 28 U.S.C. § 994(o) and (p), the

97a
Commission has modified this definition in several re­
spects to focus more precisely on the class of recidivist
offenders for whom a lengthy term of imprisonment
is appropriate and to avoid “unwarranted sentencing
disparities among defendants with similar records
who have been found guilty of similar criminal con­
duct. .. .” 28 U.S.C. § 991(b)(1)(B). The Commission’s
refinement of this definition over time is consistent
with Congress’s choice of a directive to the Commission
rather than a mandatory minimum sentencing statute
(“The [Senate Judiciary] Committee believes that such
a directive to the Commission will be more effective;
the guidelines development process can assure con­
sistent and rational implementation for the Commit­
tee’s view that substantial prison terms should be
imposed on repeat violent offenders and repeat drug
traffickers.” S. Rep. No. 225, 98th Cong., 1st Sess. 175
(1983)).
Subsection (c) provides rules for determining the sen­
tence for career offenders who have been convicted
of 18 U.S.C. § 924(c) or § 929(a). The Career Offender
Table rm subsection (c)(3) provides a sentence at or
near the statutory maximum for these offenders by
using guideline ranges that correspond to criminal
history category VI and offense level 37 (assuming
§3E.1.1 (Acceptance of Responsibility) does not apply),
offense level 35 (assuming a 2-level reduction under
§3E.1.1 applies), and offense level 34 (assuming a 3-level
reduction under §3E1.1 applies).

98a

Historical
Note

Effective November 1,1987. Amended
effective January 15,1988 (amend­
ments 47 and 48); November 1,1989
(amendments 266 and 267); November
1,1992 (amendment 459); November 1,
1994 (amendment 506); November 1,
1995 (amendment 528); November 1,
1997 (amendments 546 and 567);
November 1, 2002 (amendment 642);
November 1, 2011 (amendment 758);
August 1, 2016 (amendment 798).

99a
§ 4B1.2. Definitions of Terms Used in Section
4B1.1
(a) The term “crime of violence” means any offense
under federal or state law, punishable by imprison­
ment for a term exceeding one year, that—
(1) has as an element the use, attempted use, or
threatened use of physical force against the person
of another, or
(2) is murder, voluntary manslaughter, kidnap­
ping, aggravated assault, a forcible sex offense,
robbery, arson, extortion, or the use or unlawful
possession of a firearm described in 26 U.S.C.
§ 5845(a) or explosive material as defined in 18
U.S.C. § 841(c).
(b) The term “controlled substance offense” means
an offense under federal or state law, punishable by
imprisonment for a term exceeding one year, that pro­
hibits the manufacture, import, export, distribution, or
dispensing of a controlled substance (or a counterfeit
substance) or the possession of a controlled substance
(or a counterfeit substance) with intent to manufac­
ture, import, export, distribute, or dispense.
(c) The term “two prior felony convictions” means (1)
the defendant committed the instant offense of convic­
tion subsequent to sustaining at least two felony con­
victions of either a crime of violence or a controlled
substance offense (i.e., two felony convictions of a
crime of violence, two felony convictions of a controlled
substance offense, or one felony conviction of a crime
of violence and one felony conviction of a controlled

100a
substance offense), and (2) the sentences for at least
two of the aforementioned felony convictions are
counted separately under the provisions of § 4Al.l(a),
(b), or (c). The date that a defendant sustained a con­
viction shall be the date that the guilt of the defendant
has been established, whether by guilty plea, trial, or
plea of nolo contendere.
Commentary
Application Notes:
1. Definitions.—For purposes of this guideline—
“Crime of violence” and “controlled substance
offense” include the offenses of aiding and abet­
ting, conspiring, and attempting to commit such
offenses.
“Forcible sex offense” includes where consent
to the conduct is not given or is not legally valid,
such as where consent to the conduct is invol­
untary, incompetent, or coerced. The offenses of
sexual abuse of a minor and statutory rape are
included only if the sexual abuse of a minor or
statutory rape was (A) an offense described in
18 U.S.C. § 2241(c) or (B) an offense under state
law that would have been an offense under section
2241(c) if the offense had occurred within the spe­
cial maritime and territorial jurisdiction of the
United States.
“Extortion” is obtaining something of value from
another by the wrongful use of (A) force, (B) fear
of physical injury, or (C) threat of physical injury.

101a
Unlawfully possessing a listed chemical with intent
to manufacture a controlled substance (21 U.S.C.
§ 841(c)(1)) is a “controlled substance offense.”
Unlawfully possessing a prohibited flask or equip­
ment with intent to manufacture a controlled sub­
stance (21 U.S.C. § 843(a)(6)) is a “controlled
substance offense.”
Maintaining any place for the purpose of facihtating
a drug offense (21 U.S.C. § 856) is a “controlled sub­
stance offense” if the offense of conviction estab­
lished that the underlying offense (the offense
facilitated) was a “controlled substance offense.”
i

Using a communications facility in committing,
causing, or facilitating a drug offense (21 U.S.C.
§ 843(b)) is a “controlled substance offense” if the
offense of conviction established that the under­
lying offense (the offense committed, caused, or
facilitated) was a “controlled substance offense.”
A violation of 18 U.S.C. § 924(c) or § 929(a) is a
“crime of violence” or a “controlled substance
offense” if the offense of conviction established
that the underlying offense was a “crime of vio­
lence” or a “controlled substance offense”. (Note
that in the case of a prior 18 U.S.C. § 924(c) or
§ 929(a) conviction, if the defendant also was con­
victed of the underlying offense, the sentences
for the two prior convictions will be treated as a
single sentence under § 4A1.2 (Definitions and
Instructions for Computing Criminal History).)
“Prior felony conviction” means a prior adult
federal or state conviction for an offense punisha­
ble by death or imprisonment for a term exceeding

102a
one year, regardless of whether such offense is
specifically designated as a felony and regardless
of the actual sentence imposed. A conviction for an
offense committed at age eighteen or older is an
adult conviction. A conviction for an offense com­
mitted prior to age eighteen is an adult conviction
if it is classified as an adult conviction under the
laws of the jurisdiction in which the defendant was
convicted (e.g., a federal conviction for an offense
committed prior to the defendant’s eighteenth
birthday is an adult conviction if the defendant
was expressly proceeded against as an adult).
2. Offense of Conviction as Focus of Inquiry.—
Section 4B1.1 (Career Offender) expressly provides
that the instant and prior offenses must be crimes of
violence or controlled substance offenses of which the
defendant was convicted. Therefore, in determining
whether an offense is a crime of violence or con­
trolled substance for the purposes of § 4B1.1 (Career
Offender), the offense of conviction (i.e., the conduct
of which the defendant was convicted) is the focus of
inquiry.
3. Applicability of § 4A1.2.—The provisions of
§ 4A1.2 (Definitions and Instructions for Computing
Criminal History) are applicable to the counting of con­
victions under § 4B1.1.
4. Upward Departure for Burglary Involving
Violence.—There may be cases in which a burglary
involves violence, but does not qualify as a “crime of
violence” as defined in § 4B 1.2(a) and, as a result, the
defendant does not receive a higher offense level or

103a
higher Criminal History Category that would have
applied if the burglary qualified as a “crime of vio­
lence.” In such a case, an upward departure may be
appropriate.
Effective November 1,1987. Amended
effective January 15,1988 (amendment
49); November 1,1989 (amendment 268);
November 1,1991 (amendment 433);
November 1,1992 (amendment 461);
November 1,1995 (amendment 528);
November 1,1997 (amendments 546
Historical
and 568); November 1, 2000 (amendment
Note
600); November 1, 2002 (amendments
642 and 646); November 1, 2004
(amendment 674); November 1, 2007
(amendment 709); November 1, 2009
(amendment 736); November 1, 2015
(amendment 795); August 1, 2016
(amendment 798).

104a
2015 U.S. SENTENCING
GUIDELINES PROVISIONS
§ 2L1.2. Unlawfully Entering or Remaining in
the United States
(a) Base Offense Level: 8
(b) Specific Offense Characteristic
(1) Apply the Greatest:
If the defendant previously was deported, or
unlawfully remained in the United States, af­
ter—
(A) a conviction for a felony that is (i) a drug
trafficking offense for which the sentence
imposed exceeded 13 months; (ii) a crime of
violence; (iii) a firearms offense; (iv) a child
pornography offense; (v) a national security or
terrorism offense; (vi) a human trafficking of­
fense; or (vii) an alien smuggling offense, in­
crease by 16 levels if the conviction receives
criminal history points under Chapter Four or
by 12 levels if the conviction does not receive
criminal history points;
(B) a conviction for a felony drug trafficking
offense for which the sentence imposed was 13
months or less, increase by 12 levels if the con­
viction receives criminal history points under
Chapter Four or by 8 levels if the conviction
does not receive criminal history points;
(C) a conviction for an aggravated felony, in­
crease by 8 levels;

105a
(D) a conviction for any other felony, in­
crease by 4 levels; or
(E) three or more convictions for misde­
meanors that are crimes of violence or drug
trafficking offenses, increase by 4 levels.
Commentary
*

*

*

*

*

Application Notes:
*

5. Aiding and Abetting, Conspiracies, and At­
tempts.—Prior convictions of offenses counted under
subsection (b)(1) include the offenses of aiding and
abetting, conspiring, and attempting, to commit such
offenses.
*

*

*

